APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Judgment of
The United States Court of Appeals for the
Federal Circuit
Re: Affirming Judgment
entered March 22, 2021 ................................. 1a
Precedential Opinion of
The United States Court of Appeals for the
Federal Circuit
Re: Affirming Judgment
entered March 22, 2021 ................................. 2a
Judgment of
The United States Court of Federal Claims
Re: Denying Plaintiff’s Cross-Motion for Summary
Judgment and Granting Defendant’s Motion for
Summary Judgment
entered December 28, 2018 ......................... 12a
Memorandum Opinion and Final Order of
The United States Court of Federal Claims
Re: Denying Plaintiff’s Cross-Motion for Summary
Judgment and Granting Defendant’s Motion for
Summary Judgment
entered December 27, 2018 ......................... 13a
31 U.S.C.A. § 5321 .................................................. 84a
31 C.F.R. § 1010.820 ............................................... 92a

1a
[ENTERED: March 22, 2021]
United States Court of Appeals
for the Federal Circuit
__________________________
ALICE KIMBLE,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
__________________________
2019-1590
__________________________
Appeal from the United States Court of Federal
Claims in No. 1:17-cv-00421-SGB, Senior Judge
Susan G. Braden.
__________________________
JUDGMENT
__________________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED
ENTERED BY ORDER OF THE COURT
March 22, 2021

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

2a
[ENTERED: March 22, 2021]
United States Court of Appeals
for the Federal Circuit
______________________
ALICE KIMBLE,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
______________________
2019-1590
______________________
Appeal from the United States Court of Federal
Claims in No. 1:17-cv-00421-SGB, Senior Judge
Susan G. Braden.
______________________
Decided: March 22, 2021
______________________
PAULA SCHWARTZ FROME, Garden City, NY,
argued for plaintiff-appellant.
GEOFFREY KLIMAS, Tax Division, United States
Department of Justice, Washington, DC, argued for
defendant-appellee. Also represented by TRAVIS A.
GREAVES, GILBERT STEVEN ROTHENBERG, DEBORAH K.
SNYDER, RICHARD E. ZUCKERMAN.
______________________
BEFORE NEWMAN, LINN, AND HUGHES, CIRCUIT
JUDGES.
HUGHES, CIRCUIT JUDGE.

3a
This case stems from Alice Kimble’s failure to
comply with the requirements of the Bank Secrecy
Act with respect to her Swiss bank account. After
paying a penalty assessed by the IRS, Ms. Kimble
brought a claim against the United States for refund
of the penalty in the Court of Federal Claims on
March 24, 2017. On December 27, 2018, the Court of
Federal Claims granted the government’s motion for
summary judgment. Ms. Kimble timely appealed. For
the reasons stated below, we affirm.
I
The relevant factual background of this appeal
is undisputed. Ms. Kimble, née Green, is a citizen of
the United States. Ms. Kimble’s parents, Harold and
Frances Green, opened an investment account at the
Union Bank of Switzerland (UBS) around or before
1980 and designated Ms. Kimble as a joint owner.
According to Ms. Kimble, some of her father’s family
had been killed in the Holocaust and his parents had
fled to the United States to escape persecution. Ms.
Kimble avers that her father, Mr. Green, opened the
UBS account and maintained it in secret because he
feared being persecuted in the United States and
needing to flee to another country as his parents had.
Around 1983, Ms. Kimble married Michael
Kimble, an investment analyst. About the same time,
Mr. Green apprised Michael Kimble of the existence
of the UBS account and his desire to preserve its
secrecy, and Michael Kimble agreed to respect his
wishes. Michael Kimble subsequently advised Mr.
Green and—after Mr. Green’s death in 1997—Ms.
Kimble on the management of the UBS account until
at least 2008. Following her father’s death, Ms.
Kimble signed various agreements directing UBS to,

4a
among other things, maintain the account as a
numbered account—an account associated with a
number rather than a name—and to retain all
correspondence about the account at the bank.
While he was married to Ms. Kimble, Michael
Kimble prepared the couple’s joint federal tax
returns. Those tax returns did not report any income
derived from the UBS account nor did they disclose
the existence of the foreign account. After the couple
divorced in 2000, Ms. Kimble hired Steven Weinstein,
a certified public accountant, to prepare her income
tax returns. Mr. Weinstein never asked Ms. Kimble if
she had a foreign bank account, and Ms. Kimble did
not volunteer that she owned the UBS account.
Accordingly, from at least 2003 to 2008, Ms. Kimble’s
tax forms did not disclose her ownership of the UBS
account or the income she derived from it. Those
forms, which Ms. Kimble signed under penalty of
perjury, represented that she did not have a foreign
bank account and that she had reviewed the tax form.
Nonetheless, according to Ms. Kimble, she did not
review the accuracy of any federal income tax returns
filed on her behalf from 2003 through 2008.
In 2008, Ms. Kimble read an article in the New
York Times reporting on the Treasury Department’s
investigation into UBS for abetting tax fraud with
respect to its numbered accounts. Ms. Kimble
testified that this was the first time she learned of her
obligation to disclose her foreign bank accounts. Ms.
Kimble later retained counsel to comply with the
foreign reporting requirements. In 2009, UBS entered
into a deferred prosecution agreement with the United
States that required UBS to unmask its numbered
accounts held by United States citizen clients. That

5a
same year, Ms. Kimble applied for and was accepted
into the Offshore Voluntary Disclosure Program
(OVDP), a program designed for taxpayers exposed to
potential criminal or substantial civil liability due to
a willful failure to report foreign financial assets and
pay taxes due stemming from those assets. In 2012,
Ms. Kimble and the IRS negotiated an agreement
resolving the matter of her undisclosed foreign bank
account, which required her to pay a penalty of
$377,309. In 2013, Ms. Kimble withdrew from the
OVDP and declined to pay the penalty.
After completing its examination of Ms.
Kimble’s tax filings and her foreign accounts,1 the IRS
determined that Ms. Kimble’s failure to report the
UBS account was willful and the examiner therefore
assessed a penalty of $697,299, representing 50% of
the account. Ms. Kimble paid the penalty but sued in
the Court of Federal Claims seeking a refund.
The Court of Federal Claims granted summary
judgment against Ms. Kimble. In holding that Ms.
Kimble violated 31 U.S.C. § 5314, the court found
undisputed that, until 2008, Ms. Kimble never
disclosed the account to her accountant nor inquired
about any need to report foreign income, that she
indicated on her tax returns that she had no foreign
accounts, and that she did not review her tax returns
but signed that she had reviewed them and that they
were correct under penalty of perjury. The court held
that these actions constituted a “reckless disregard”
for the legal duty to disclose foreign bank accounts
and that Ms. Kimble’s conduct was therefore “willful”

Ms. Kimble also maintained an undisclosed bank
account in France with the Hong Kong and Shanghai Banking
Corporation which is not relevant to this appeal.
1

6a
under § 5321(a)(5). The Court of Federal Claims also
found no dispute of material fact that the IRS did not
abuse its discretion in setting a 50% penalty and
noted that Ms. Kimble had waived any Eighth
Amendment arguments by failing to plead them.
Ms. Kimble appeals.
II
We review de novo the Court of Federal Claims’
grant of the government’s motion for summary
judgment and the court’s denial of Ms. Kimble’s crossmotion. Premier Off. Complex of Parma, LLC v.
United States, 916 F.3d 1006, 1011 (Fed. Cir. 2019).
We review a Court of Federal Claims willfulness
determination for clear error. Norman v. United
States, 942 F.3d 1111, 1115 (Fed. Cir. 2019). We set
aside an agency’s penalty selection only if it was
arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with the law. See, e.g.,
Ninestar Tech. Co. v. Int’l Trade Comm’n, 667 F.3d
1373, 1379 (Fed. Cir. 2012).
Congress enacted the Bank Secrecy Act (BSA)
to ensure that citizens paid taxes on income earned
abroad. See Pub. L. No. 91-508, 84 Stat. 1114 (1970).
The regulations implementing 31 U.S.C. § 5314, a
codification of the BSA, require any U.S. citizen
“having a financial interest in, or signature or other
authority over, a bank, securities or other financial
account in a foreign country” to report certain details
about the account to the Treasury Department. 31
C.F.R. § 1010.350(a). This report must be made each
year by filing a Form TD F 90-22.1, Report of Foreign
Bank and Financial Accounts (FBAR). Id. § 1010.306(c).
An FBAR must be filed “with respect to foreign financial

7a
accounts exceeding $10,000 maintained during the
previous calendar year.” Id. The familiar Form 1040,
used by every United States resident filing a personal
federal income tax return, includes Schedule B, which
contains a check-the-box question that puts a taxpayer
on notice as to this obligation. See United States v.
Williams, 489 F. App’x 655, 659 (4th Cir. 2012) (holding
that failure to read this question does not change that
a taxpayer is on inquiry notice). Schedule B’s
instructions direct taxpayers to check “Yes” if they had
authority over or an interest in a foreign account and
provide instruction for taxpayers to file an FBAR if so.
The Secretary of the Treasury may impose a
civil penalty for violations of 31 U.S.C. § 5314. See 31
U.S.C. § 5321. If the failure to file an FBAR is
“willful,” the Secretary may impose a penalty up to
the greater of either $100,000 or 50 percent of the
balance of the account at the time of the violation. 31
U.S.C. § 5321(a)(5).
III
Here, the parties do not dispute that Ms.
Kimble failed to disclose a foreign bank account that
she was required to disclose. Rather, Ms. Kimble
argues that her violation was not “willful.” We hold
that, based on the undisputed facts, it was not clear
error for the Court of Federal Claims to find Ms.
Kimble’s violation willful.
Contrary to Ms. Kimble’s argument that a
taxpayer cannot commit a willful violation without
“actual knowledge of the obligation to file an FBAR,”
Appellant’s Br. 32, we have held that “willfulness in
the context of § 5321(a)(5)(C) includes recklessness,”
Norman, 942 F.3d at 1115. Accordingly, a taxpayer

8a
signing their returns cannot escape the requirements of
the law by failing to review their tax returns. Id. at 1116
(“[W]hether [the taxpayer] ever read her . . . tax
return is of no import because ‘[a] taxpayer who signs
a tax return will not be heard to claim innocence for not
having actually read the return, as . . . she is charged
with constructive knowledge of its contents.’”) (quoting
Greer v. Comm’r, 595 F.3d 338, 347 n.4 (6th Cir. 2010)).
The undisputed facts show that Ms. Kimble
knew about the numbered account and took efforts to
keep it secret by, among other things, not disclosing
the account to her accountant. She did not review her
tax returns for 2003-2008, but she represented under
penalty of perjury that she had reviewed her tax
returns and had no foreign accounts. J.A. 17. In other
words, Ms. Kimble had a secret foreign account, she
had constructive knowledge of the requirement to
disclose that account, and she falsely represented that
she had no such accounts. Under these facts, it was
not clear error for the Court of Federal Claims to hold
that she committed a willful violation.2
IV
Ms. Kimble argues that, even if she committed
a willful violation, she should not have been assessed
such a substantial penalty. We now affirm the Court

Ms. Kimble’s reasons for the violation (her subjective
belief about the need for secrecy, advice from her ex-husband,
etc.) do not alter our inquiry. A taxpayer can be “willful” even if
her violation has good reason. See Bedrosian v. United States,
912 F.3d 144, 153 (3d Cir. 2018) (inquiring into “subjective
motivations and the overall ‘egregiousness’ of [the taxpayer’s]
conduct . . . [is] not re-quired to establish willfulness in this
context”); Norman, 942 F.3d at 1116 (“Actions can be willful even
if taken on the advice of another.”). And there is no “reasonable
cause” exception for willful violations. 31 U.S.C. § 5321(a)(5)(C)(ii).
2

9a
of Federal Claims’ holding that the IRS did not abuse
its discretion in assessing the statutory maximum
civil penalty of 50% of the bank account’s value.3
A
Ms. Kimble argues that the severity of the
penalty violates the maximum allowed by 31 C.F.R.
§ 1010.820 and that the Court of Federal Claims erred
in holding that the regulation was superseded by 31
U.S.C. § 5321(a)(5)(C). Appellant’s Br. 18–19. However,
we conclusively resolved this issue in Norman, 942 F.3d
at 1117 (“Because the 1987 regulation [§ 1010.820]
sets forth a maximum willful FBAR penalty that is
inconsistent with the maximum penalty mandated by
statute [§ 5321(a)(5)], the 1987 regulation is no longer
valid.”). The trial court correctly held that 31 U.S.C.
§ 5321(a)(5)(C) sets the penalty for willful violations.
B
Ms. Kimble also contends that the IRS abused
its discretion by issuing the maximum civil penalty of
50%, but we affirm the Court of Federal Claims’
holding that the IRS was within its discretion.
Ms. Kimble argues that, because the IRS
applied the maximum penalty under the statute, the
IRS failed to mitigate her penalty. To the contrary,
here, the IRS used the mitigation guidelines to
determine that the maximum penalty should apply.
The Internal Revenue Manual recommends a “Level
IV” 50% penalty for willful violations where the
account balance is over $1,000,000. I.R.M. § 4.26.162; J.A. 512–13. Those criteria were met here.

While the penalty is the maximum civil penalty under
31 U.S.C. § 5321, it is not the harshest enforcement mechanism
in our tax system. See, e.g., 26 U.S.C. § 7201.
3

10a
The IRS guidelines allow for deviation from the
recommendations, but the IRS did not find that other
circumstances warranted straying from the guidelines.
Id. We find unpersuasive Ms. Kimble’s arguments
that the IRS relied on improper facts in making
this determination. One factor considered was the
individual’s connection to a foreign country. Ms.
Kimble contends that the account gave her a
connection to Switzerland, but we see no error in the
Court of Federal Claims’ assessment that a property
interest in a bank account is not sufficient on its own
to establish a significant contact with a foreign
country. J.A. 20.
Despite her meetings with bank representatives
and the frequency of her transactions with the
account, Ms. Kimble argues that she was not an active
manager of the account because she followed the
advice of her ex-husband. Whether a party follows the
advice of another is irrelevant to whether she
manages an account, so the IRS did not abuse its
discretion in determining that Ms. Kimble actively
managed the account. Ms. Kimble also argues that
the IRS improperly determined her to be the sole
beneficiary of the account. The IRS made this
determination based on her stipulation, but even
assuming she was not the sole beneficiary, it is
undisputed that she had a direct interest in the
account, and Ms. Kimble provides no reason why one
must be the sole beneficiary in order to receive the
penalty stated in the guidelines.
Given the undisputed facts, the penalty was
suggested by the IRS’s nonbinding guidelines and was
within the statutory authorization. See J.A. 512–13;
31 U.S.C.§ 5321(a)(5)(C). The Court of Federal Claims

11a
did not err in holding that the IRS did not abuse its
discretion.
C
Finally, Ms. Kimble argues that the penalty
violates the Eighth Amendment as an excessive fine,
but this claim was waived. The Court of Federal
Claims held that it did not need to address this
argument because the Plaintiff did not raise it in her
complaint. Ms. Kimble contends that page 45 of her
complaint raised the Eighth Amendment by seeking
a return of the “excess penalty,” but, rather than
invoking the Eighth Amendment, this wording fits
with her other arguments that the penalty either
should have been mitigated or violated IRS
regulations. Appellant’s Br. 50. The “traditional rule
is that once a federal claim is properly presented, a
party can make any argument in support of that
claim.” Lebron v. Nat’l R.R. Passenger Corp., 513 U.S.
374, 379 (1995) (citations omitted). But distinct
claims are waived if not pled in a complaint. See Casa
de Cambio Comdiv S.A., de C.V. v. United States, 291
F.3d 1356, 1366 (Fed. Cir. 2002) (“[W]e need not
address Casa’s agency theory because . . . [n]o
mention of this theory appears in Casa’s complaint.”).
Accordingly, we will not consider this claim on appeal.
V
Because we agree with the Court of Federal
Claims that Ms. Kimble’s conduct was willful and
that the IRS did not abuse its discretion in assessing
a 50% penalty, we affirm.
AFFIRMED

12a
[ENTERED: December 28, 2018]
In the United States Court of Federal Claims
No. 17-421 T
(Filed: December 28, 2018)
ALICE KIMBLE
Plaintiff
v

JUDGMENT

THE UNITED STATES
Defendant
Pursuant to the court’s Memorandum
Opinion And Final Order, filed December 27, 2018,
denying plaintiff’s cross-motion for summary
judgment and granting defendant’s motion for
summary judgment,
IT IS ORDERED AND ADJUDGED this
date, pursuant to Rule 58, that the judgment is
entered in favor of defendant.
Lisa L. Reyes
Clerk of Court
s/Anthony Curry
Deputy Clerk
NOTE: As to appeal to the United States Court of
Appeals for the Federal Circuit, 60 days from this
date, see RCFC 58.1, re number of copies and
listing of all plaintiffs. Filing fee is $505.00.

13a
In the United States Court of
Federal Claims
No. 17-421
Filed: December 27, 2018
************************
* 26 U.S.C. § 6511 (Limitations
* On Credit Or Refund);
* 26 U.S.C. § 6672 (Failure To
* Collect And Pay Over Tax);
* 26 U.S.C. § 7121
* (Closing Agreements);
v.
* 26 U.S.C. § 7422
* (Civil Actions For Refund);
* 28 U.S.C. § 1346 (United
ALICE KIMBLE,
* States As Defendant);
* 28 U.S.C. § 1491
Plaintiff,
* (Tucker Act);
* 31 U.S.C. § 5314
* (Records And Reports
* On Foreign Financial
THE UNITED STATES, * Agency Transactions);
* 31 U.S.C. § 5321
Defendant.
* (Civil Penalties);
* 26 C.F.R. § 301.7701(b)* 2(d)(1) (Closer
* Connection Exception);
* 31 C.F.R. § 1010.350
* (Reports Of Foreign
* Financial Accounts);
* 31 C.F.R. § 1010.820
* (Civil Penalty);
* RCFC 11(b) (Representations
* To The Court);
* RCFC 56 (Summary
* Judgment)
*************************

14a
James O. Druker, Kase & Druker, Garden City,
New York, Counsel for Plaintiff.
Jason S. Selmont, United States Department of
Justice, Tax Division, Washington, D.C., Counsel for
the Government.
MEMORANDUM OPINION AND FINAL
ORDER GRANTING DEFENDANT’S MOTION
FOR SUMMARY JUDGMENT
BRADEN, Senior Judge.
This case presents two issues arising under 31
U.S.C. § 5321(a)(5) (2004) that currently are before
the United States Court of Appeals for the Federal
Circuit in a pending appeal: (1) whether the Internal
Revenue Service (“IRS”) must establish that a
taxpayer had knowledge of the legal duty under
federal tax law to report foreign bank accounts, but
acted in “reckless disregard” of that duty, before it
may impose a civil penalty for a willful violation of
31 U.S.C. § 5314; and (2) whether the maximum
penalty for a willful violation of 31 U.S.C. § 5314, as
set forth in 31 U.S.C. § 5321(a)(5)(C)(i) (2004),
supersedes 31 C.F.R. § 1010.820(g)(2). See
Appellant’s Br., Norman v. United States, Fed. Cir.
No. 18-2408 (Nov. 20, 2018).

15a
I.

RELEVANT FACTUAL BACKGROUND.1
A.

Alice
Kimble’s
Accounts.

Foreign

Bank

Alice Green is a United States citizen, born in
1951. Stip. ¶ 1. Her father, Harold Green, died in
1997; her mother, Frances Green, died in 2016. Stip.
¶ 10.
Sometime prior to 1980, Harold Green and
Frances Green opened an investment account at the
Union Bank of Switzerland (“UBS account”); Harold
Green designated Alice as a joint owner. Stip. ¶¶ 12,
13.
According to Harold Green’s daughter, the
purpose of the UBS account was, as follows:
As you know, ever since you have been
a little girl, I have taught you that we
need to have a safe haven because I am
Jewish. You are half Jewish and our
family was killed in the Holocaust and
my parents escaped prosecution. So we
have an account that we are not going
to use the money for in case we ever

The facts recited herein were derived from: the June
27, 2018 Stipulation Of Facts (“Stip.”); Exhibits attached to the
June 27, 2018 Motion For Summary Judgment (“Def. Ex. 1–
37”); the deposition transcripts of Alice Kimble (“Alice Kimble
Tr.”), Michael Kimble (“Michael Kimble Tr.”), and Steven
Weinstein (“Weinstein Tr.”); documents attached to the
Declaration of Melissa Irons (“Irons Decl. 006–604”); and
Exhibits attached to Plaintiffs’ July 24, 2018 Cross-Motion For
Summary Judgment (“Pl. Ex. A–B”). 
1

16a
have to escape America and it’s in
Switzerland and you must never tell
anybody about this account.
Alice Kimble Tr. 18:24–19:8.
Neither Harold nor Frances Green filed a gift
tax return reporting that Alice Green was a coowner. Alice Kimble Tr. 18:1–13.
In 1983 or 1984, Alice Green married Michael
Kimble. Compare Stip. ¶ 7 with Michael Kimble Tr.
25:6. Sometime afterwards, Harold Green told
Michael Kimble about the UBS account. Stip. ¶ 15;
Michael Kimble Tr. 38:21–39:1 (“[Harold Green]
feared . . . a repeat of the Holocaust. And to the
extent that anyone knew about this bank account
that would defeat the whole purpose.”); 41:13–16
(“You cannot touch this, except for dire emergency.
Life-and-death emergency. You need to get out of the
country.”). Michael Kimble promised to “always
respect” Harold Green’s wishes. Alice Kimble Tr.
22:14–15.
Alice and Michael Kimble had one son, David
Kimble, born in 1985. Stip. ¶ 8. Alice Kimble told
David Kimble about the UBS account when he was a
teenager and instructed him to keep it “totally
secret[,] because one day we [may] need to escape
the United States.” Alice Kimble Tr. 23:7–8, 116:19.
In or around 1998, Alice and Michael Kimble
opened a bank account at HSBC (“HSBC account”) in
Paris, France to pay expenses associated with a
Paris apartment they owned. Stip. ¶¶ 32, 35.
Michael Kimble made the initial deposit opening the

17a
HSBC account. Stip. ¶ 33. No money in the HSBC
account was derived from illegal activities or used
for illegal purposes. Stip.¶ 34.
On July 22, 1998, Alice Kimble signed a
“Numbered Account Agreement” that directed UBS
physically to retain all correspondence about the
UBS account at the bank in Switzerland and paid a
fee for that service. Stip. ¶ 23. That same day, Alice
Kimble also signed a “Basic Trust Agreement” that
instructed UBS “to effect capital investments in the
form of time deposits.” Stip.¶ 22.2
During his marriage to Alice Kimble, Michael
Kimble handled the couple’s finances and prepared
their joint federal tax returns, but never reported
any investment income derived either from the
HSBC or UBS accounts. Michael Kimble Tr. 61:24,
62:22–63:1. Nor did Michael Kimble and Alice
Kimble report the existence of their foreign bank
accounts on their joint federal tax returns. Michael
Kimble Tr. 63:2–8. According to Michael Kimble, he
did not know about the federal requirement to report
foreign bank accounts until he learned about it in
the “[l]ate ‘90s,” while using Turbo Tax. Michael
Kimble Tr. 65:12–17.
In 2000, Alice and Michael Kimble divorced.
Stip. ¶ 7. Alice Kimble did not disclose the UBS
account in any of the documents produced during the
divorce. Stip. ¶ 17. However, after the divorce, Alice

The Parties’ Stipulation Of Facts states that “June 22,
2018,” was the date that Alice Kimble signed the Numbered
Account Agreement and Basic Trust Agreement. Stip. ¶¶ 22,
23. Those documents, however, were dated “22.07.98.” Defs. Ex.
1, 2. 
2

18a
Kimble became the sole owner of the HSBC account.
Stip. ¶ 36. Michael Kimble continued to provide
Alice Kimble with financial advice and attended
meetings with UBS representatives. Stip. ¶¶ 18, 29.3
According to Alice Kimble, she and Michael Kimble
continued to keep the UBS account secret out of
respect for Harold Green. Alice Kimble Tr. 98:15.
In or around 2000, Alice Kimble hired Steven
Weinstein, a certified public accountant licensed in
New York, to prepare her federal and New York
state income tax returns. Stip. ¶ 41. Mr. Weinstein
never asked Alice Kimble if she had a foreign bank
account. Weinstein 15:15. At that time, Alice Kimble
did not disclose the existence of either the UBS or
HSBC accounts to Steven Weinstein. Stip. ¶ 43.
Alice Kimble also never asked Steven Weinstein
whether foreign investment income needed to be
reported on her federal income tax returns. Stip. ¶¶
44, 45.
In 2005, Alice Kimble granted David Kimble
and Frances Green a general Power of Attorney over
the UBS account. Stip. ¶ 19. The Power of Attorney
provided that David Kimble and Frances Green “are
authorized to act severally and by their sole
signature.” Def. Ex. 6. Alice Kimble testified that she
gave Michael Kimble a “certain type” of Power of
Attorney over the UBS account in 2005, but Michael
Kimble’s name does not appear on any authorization
document and Michael Kimble testified that he was
not aware that he was granted a Power of Attorney.

Between 1998 and 2008, Alice and Michael Kimble
met with UBS representatives in New York at least six times to
discuss the account. Stip. ¶¶ 28, 29. Alice Kimble also met with
a UBS representative in Switzerland at least once. Stip. ¶ 28. 
3

19a
Compare Alice Kimble Tr. 96:2–6 with Def. Ex. 6;
Michael Kimble Tr. 44:2.
On April 15, 2005, Alice Kimble signed three
documents concerning the USB account. Def. Exs. 3,
4, 5. The first document was a “Basic Document for
Account/Custody
Account
Relationship,”
that
provided: “Except for special circumstances,
correspondence is . . . to be retained for a fee and
held available at UBS.” Def. Ex. 5. The second
document was a “Supplement for New Account US
Status Tax Form US Withholding Tax/Natural
Person Assets and Income Subject to United States
Withholding Tax Declaration of Non-US Status.”
Stip. ¶ 25. Question 2 of this document provided:
“The undersigned account holder hereby declares
that he/she is the beneficial owner of the assets and
income to which this declaration relates in
accordance with [United States] tax law.” Def. Ex. 3.
The third document was a “Verification of the
beneficial owner’s identity” and provided: “The
contracting partner hereby declares” and then listed
two options. Def. Ex. 4. Alice Kimble checked the box
next to the option indicating that “the contracting
partner is the sole beneficial owner of the assets
concerned.” Def. Ex. 4. Frances Green was a coowner of the UBS account at that time; therefore,
Alice Kimble’s representation to UBS that she was
the sole beneficial owner was not accurate. Alice
Kimble Tr. 49:2–3.
Prior to 2008, Alice Kimble did not make any
deposits into or withdrawals from the UBS account.
Stip. ¶ 30. The UBS account earned investment
income each year from 2003 through 2008. Stip. ¶
49. In or around 2008, Alice Kimble added David

20a
Kimble as a co-owner on the UBS account. Alice
Kimble Tr. 17:19–22. Thereafter, David Kimble
continued to attend meetings between Alice Kimble
and UBS representatives. Alice Kimble Tr. 28:22.
In 2008, Alice Kimble also learned from an
article in the New York Times that the United States
was “putting pressure on UBS to reveal the names of
people who had secret accounts in UBS.” Alice
Kimble Tr. 55:7–18. Prior to reading the New York
Times article, Alice Kimble did not know that she
had an obligation to disclose her foreign bank
accounts. Alice Kimble Tr. 87:3; 100:20–101:8.
Around that time, Alice Kimble retained counsel to
comply with foreign reporting requirements. Alice
Kimble Tr. 56:20–22.
On June 30, 2008, the balance in the UBS
account was $1,365,661.65. Stip. ¶ 31. On June 30,
2008, the balance in the HSBC account was
$134,129.67. Stip. ¶ 40.
In 2009, UBS entered a deferred prosecution
agreement with the United States that required
UBS to provide the IRS with the names and account
information of United States citizen clients. Def. Ex.
31 at 161. On October 24, 2009, Alice Kimble signed
a document authorizing UBS to comply with the
IRS’s request. Def. Ex. 32 at 199.
In or around 2010, Alice Kimble sold the Paris
apartment, closed the HSBC account, and deposited
the proceeds into the UBS account. Stip. ¶ 38; Alice
Kimble Tr. 59:1–6.

21a
B.

Alice Kimble’s Federal Tax Returns.4

Alice Kimble timely filed Form 1040s for tax
years 2004 through 2008. Stip. ¶ 47; Def. Ex. 10–14.5
But, on those Form 1040s, Alice Kimble did not
report any investment income, either from the UBS
or HSBC accounts. Stip. ¶ 50; Def. Exs. 10–14. Alice
Kimble also did not review the accuracy of any
federal income tax returns filed on her behalf for tax
years 2003 through 2008. Stip. ¶ 46.
Question 7(a) of IRS Federal Form 1040, U.S.
Individual Income Tax Return, Schedule B – Interest
and Ordinary Dividends, Part III, Foreign Accounts
and Trusts, for the tax years 2004 through 2007
asked: “At any time during [that tax year], did you
have an interest in or a signature or other authority
over a financial account in a foreign country, such as
a bank account, securities account, or other financial
account?” Def. Ex. 13 at 82.
In each tax year 2003 through 2008, the IRS
also published instructions to Schedule B. See, e.g.,
Def. Ex. 27. For example, the 2007 instructions for

All relevant statutes and regulations are produced in
the Court Appendix, attached to this Memorandum Opinion
And Final Order. 
4

Alice Kimble timely filed Form 1040s for tax years
2003 through 2008. Stip. ¶ 47. The only Form 1040s, attached
as an Exhibit to the June 27, 2018 Motion For Summary
Judgment, were for tax years 2004 through 2008. Def. Ex. 10–
14. Therefore, the court did not rely on the parties’
representations regarding Alice Kimble’s Form 1040 for tax
year 2003 in resolving the pending motions. See RCFC 56(a)
(“A party asserting that a fact cannot be or is genuinely
disputed must support the assertion by: (A) citing to particular
parts of materials in the record.”). 
5

22a
completing Schedule B stated that a taxpayer should
reply “Yes” to Question 7(a) if either:
1.
You own more than 50% of the
stock in any corporation that owns one
or more foreign bank accounts.
2.
At any time during 2007 you had
an interest in or signature authority
over a financial account in a foreign
country (such as a bank account,
securities account, or other financial
accounts).
Def. Ex. 27 at 137.
The 2007 instructions also provided:
See [the Report of Foreign Bank and
Financial Accounts (“FBAR”)] to find
out if you are considered to have an
interest in or signature or other
authority over a financial account in a
foreign country (such as a bank
account, securities account, or other
financial account). You can get [a
FBAR] by visiting the IRS website at
www.irs.gov/pub/irs-pdf/f90221.pdf.
If you checked the “Yes” box on line 7a,
file [a FBAR] by June 30, 2008, with the
Department of the Treasury at the
address shown on that form. Do not
attach it to Form 1040.
Def. Ex. 27 at 137.

23a
On each Form 1040 for tax years 2004
through 2007, Alice Kimble checked the box next to
Question 7(a) labeled “No.” Stip. ¶ 48; see, e.g., Def.
Ex. 13 at 82. On the Form 1040 for 2008, Alice
Kimble left the spaces next to Question 7(a) blank.
Def. Ex. 14 at 88.
Alice Kimble did not timely file a FBAR for
calendar years 2003 through 2008. Stip. ¶ 61. In
July 2000, the IRS issued specific FBAR
instructions, that stated:
Who Must File this Report Each
United States person, who has a
financial interest in or signature
authority, or other authority over any
financial accounts, including bank,
securities, or other types of financial
accounts in a foreign country, if the
aggregate value of these financial
accounts exceeds $10,000 at any time
during the calendar year, must report
that relationship each calendar year by
filing [a FBAR] with the Department of
the Treasury on or before June 30, of
the succeeding year.
Def. Ex. 28 at 140 (bold in original).
The FBAR instructions define a “financial
interest” as:
Financial
Interest
A
financial
interest in a bank, securities, or other
financial account in a foreign country

24a
means an interest described in either of
the following two paragraphs:
(1) A United States person has a
financial interest in each account for
which such person is the owner of
record or has legal title, whether the
account is maintained for his or her
own benefit or for the benefit of others
including non-United States persons.
Def. Ex. 28 at 140 (bold in original).6
On April 8, 2009, Alice Kimble applied to the
Offshore Voluntary Disclosure Program (“OVDP”), a
“voluntary disclosure program specifically designed
for taxpayers with exposure to potential criminal
liability and/or substantial civil penalties due to a
willful failure to report foreign financial assets and
pay all tax due in respect of those assets.” Def. Ex. at
33.
On October 16, 2009, Alice Kimble was
accepted into the OVDP. Stip. ¶ 64; Irons Decl. 351.
Around that time, however, Alice Kimble “switched”
the UBS account number to a new one, to reflect that
David Kimble was no longer a co-owner on the UBS
account. Alice Kimble Tr. 37:1–24.
On January 27, 2011, Alice Kimble filed Form
1040X, Amended U.S. Individual Income Tax
Return, for tax years 2003 through 2008, as part of

The instructions for completing the FBAR were again
revised in October 2008; those instructions materially are
identical to the July 2000 instructions. Compare Def. Ex. 28
with Def. Ex. 29. 
6

25a
her participation in the OVDP. Stip. ¶ 51; Def. Ex.
15–20.
x On the amended return for tax year
2003, Alice Kimble reported an
underpayment of $14,564. Stip. ¶ 52;
Def. Ex. 15 at 92.
x On the amended return for tax year
2004, Alice Kimble reported an
underpayment of $9,473. Stip. ¶ 53;
Def. Ex. 16 at 97.
x On the amended return for tax year
2005, Alice Kimble reported an
underpayment of $11,165. Stip. ¶ 54;
Def. Ex. 17 at 101.
x On the amended return for tax year
2006, Alice Kimble reported an
underpayment of $25,643. Stip. ¶ 55;
Def. Ex. 18 at 105.
x On the amended return for tax year
2007, Alice Kimble reported an
underpayment of $26,391. Stip. ¶ 56;
Def. Ex. 19 at 111. Alice Kimble also
changed her answer to Question 7(a) on
Schedule B – Interest and Ordinary
Dividends from “No” to “Yes.” Stip. ¶
60; Def. Ex. at 111.
x
On the amended return for tax
year 2008, Alice Kimble reported an
underpayment of $12,130. Stip. ¶ 57;
Def. Ex. 20 at 118.

26a
Each of these underpayments were caused by
Alice Kimble’s failure to report foreign income to the
IRS. Stip. ¶ 58.
On the amended returns for tax years 2003 to
2006 and 2008, Alice Kimble also did not amend her
answer to Question 7(a), although income from both
the UBS and HSBC accounts was included on
amended Schedule B for each of those years. Stip. ¶
59. Alice Kimble proffered no explanation as to why
her answer to Question 7(a) for those years was
never amended. Alice Kimble Tr. 82:15.
On September 25, 2012, Alice Kimble filed a
FBAR for calendar years 2003 through 2008. Stip. ¶
62; Def. Ex. 21–26. On each FBAR, Alice Kimble
reported the existence of the UBS or HSBC accounts.
Stip. ¶ 63; Def. Ex. 21–26.
On October 5, 2012, Alice Kimble and the IRS
negotiated a Closing Agreement7 that required an
amendment to her income tax returns 2003 through
2008 to report undisclosed foreign income and pay
the tax liability due. Def. Ex. 34 at 202. In addition,
the October 5, 2012 Closing Agreement required
Alice Kimble to pay a miscellaneous penalty of
$377,309.00. Def. Ex. 34 at 202 ¶ 3. But, Alice

7

Section 7121 of the Internal Revenue Code provides

that:
(a) The Secretary is authorized to enter into an
agreement in writing with any person relating
to the liability of such person (or of the person
or estate for whom he acts) in respect of any
internal revenue tax for any taxable period.
26 U.S.C. § 7121. 

27a
Kimble did not know whether the Closing
Agreement, bearing her signature, was ever
submitted to the IRS. Alice Kimble Tr. 107:10.
In or around February 2013, Alice Kimble
attempted to withdraw from the OVDP and declined
to pay the miscellaneous penalty. Irons Decl. 334,
336. A letter from Alice Kimble’s attorney to the IRS,
relaying her decision to withdraw from the OVDP, is
dated “January 23, 2013,” but a follow-up letter
dated “February 26, 2013” clarified that her decision
was effective on the later date. Irons Decl. 334, 336.
Alice Kimble testified that she decided to “take her
chances” with the IRS. Stip. ¶ 66; Alice Kimble Tr.
103:10–11 (“The penalty was so high that I was
advised to appeal the penalty.”). Thereafter, the IRS
sent Alice Kimble a letter informing her that any
opt- out from the OVDP would be irrevocable and
might cause her to incur a higher penalty. Stip. ¶ 65.
C.

The Internal
Examination.

Revenue

Service

Sometime in 2013, the IRS began an
examination of Alice Kimble’s FBAR filings for the
2007 calendar year. Stip. ¶ 67. After an IRS Revenue
Agent conducted an audit of the UBS and HSBC
accounts, it was determined that Alice Kimble’s
failure to file a FBAR for 2007 was “willful.” Irons
Decl. 025–037. Specifically, the IRS found: Alice
Kimble was “required to file [FBARs] annually for
many years but failed to do so;” she qualified for
mitigation, because she satisfied the four regulatory

28a
criteria;8 but her failure to file FBARs nevertheless
was “willful.” Irons Decl. 025–033. The “willfulness”
finding was based on eight factual findings:
1.
Alice
Kimble
had
“direct
financial interest in the accounts as she
was listed as the sole owner of each
account.” Irons Decl. 030.
2.
“All original Schedule B’s-Part
III [Question 7(a)] per returns were
checked ‘No.’” Irons Decl. 031. “It is
reasonable to assume that a person
inheriting a Swiss bank account worth
over a million dollars would inform
themselves of their obligations related
to such an account.” Irons Decl. 031.

8

The four regulatory criteria were:
x

No prior history of past FBAR
penalty assessments.

x

No money in
accounts was
sources or used
purposes, based
information.

x

[Alice Kimble] is cooperating
with the [IRS].

x

The civil fraud penalty was not
asserted for any underpayments
of tax that were connected to
her failure to file FBARs.

the foreign
from illegal
for criminal
on available

Irons Decl. 025; see also I.R.M. § 4.26.16.4.6.1. Unless
otherwise noted, all citations to Internal Revenue Manual
(“I.R.M.”) §§ 4.26.16 et seq. reference the I.R.M., issued on July
1, 2008. 

29a
3.
Alice Kimble “failed not only to
disclose her accounts and [sic] but also
omitted all income associated with
them, repeatedly. This went on for
decades, and [Alice] Kimble only choose
[sic] to correct her returns and
participate in [OVDP] after advisement
from UBS, once the [July 8, 2008] John
Doe [S]ummons was issued to the
bank.” Irons Decl. 031.
4.
Alice Kimble “took efforts to
conceal the existence of her accounts.”
Irons Decl. 031.
5.
Alice
Kimble
“had
active
management of both accounts.” Irons
Decl. 032.
6.
Alice Kimble “has no business or
family connection to either France, or
Switzerland.” Irons Decl. 032. Fear of
persecution
“does
not
represent
reasonable cause for noncompliance
with U.S. law.” Irons Decl. 032.
7. “Even after entering into and opting
out of [OVDP] the [sic] [Alice] Kimble
has remained non-compliant.” Irons
Decl. 032.
8. Alice Kimble “had significant
involvement with her accounts[,] and
has generated sizable offshore income
that she chose to conceal (52% of her
overall earnings in 2007 were related to

30a
concealed foreign accounts).” Irons Decl.
033.
The IRS also rejected Alice Kimble’s request
to apply a “reasonable cause” standard,9 because her
violation was “willful” and “the facts do not support
that ordinary business care and prudence were
exercised.” Irons Decl. 034. Therefore, the IRS
calculated the applicable penalty, in accordance with
I.R.M. § 4.26.16.3.610 and I.R.M. Exhibit 4.26.16-2.11
Irons Decl. 035. Next, the IRS added 50 percent of
the balance in the UBS account, as of June 30, 2008
($682,832), to 10 percent of the balance in the HSBC
account, as of December 31, 2007 ($14,397). Irons
Decl. 037, 092.12 The total penalty amount was
determined to be $697,229. Irons Decl. 037.
On April 7, 2014, the IRS issued Letter 3709,
advising Alice Kimble that she owed a penalty of

Title 31, U.S.C. § 5321(a)(5)(B)(ii) states that, for nonwillful violations, “[n]o penalty shall be imposed” if:
9

(I) such violation was due to reasonable cause,
and
(II) the amount of the transaction or the
balance in the account at the time of the
transaction was properly reported.
31 U.S.C. § 5321(a)(5)(B)(ii). 
See Court Appendix, infra, for the text of I.R.M.
§ 4.26.16.3.6. 
10

See Court Appendix, infra, for the text of I.R.M.
Exhibit 4.26.16-2. 
11

The fractional balance for each account was rounded
to the nearest dollar, before adding them together. Irons Decl.
037. 
12

31a
$697,229, pursuant to 31 U.S.C. § 5321(a)(5),13 for
the willful failure to file a FBAR for 2007. Stip. ¶ 68;
Iron Decl. 013–015.
On July 15, 2016, the IRS assessed a penalty
in the amount of $697,229. Stip. ¶ 69. On or about
August 3, 2016, Alice Kimble paid the full amount of
the assessed penalty. Stip. ¶ 70.14 On September 8,
2016, Alice Kimble filed a Claim For Refund And
Request For Abatement with the IRS. Compl. Ex.
A.15
II.

PROCEDURAL HISTORY.

On March 24, 2017, Alice Kimble (“Plaintiff”)
filed a Complaint in the United States Court of
Federal Claims for a refund of the assessed penalty.
ECF No. 1.16

See Court Appendix, infra, for the text of 31 U.S.C.
§ 5321(a)(5) (2004).

14 The Parties’ Stipulation states that Alice Kimble paid
the assessed penalty on August 3, 2016. Stip. ¶ 70.

15 See RCFC 56(c)(3) (“The court need consider only the
cited materials, but it may consider other materials in the
record.”).

16 The March 24, 2017 Complaint alleged that Alice
Kimble paid the assessed penalty on August 8, 2016. Compl.
¶ 8. But, the September 8, 2016 Claim For Refund states that
Alice Kimble paid the assessed penalty on “8/11/2016.” Compl.
Ex. A. The March 24, 2017 Complaint also alleged that Alice
Kimble’s parents were “Holocaust survivors.” Compl. ¶ 16. But,
Alice Kimble testified that both her parents were born in the
United States. Alice Kimble Tr. 92:19–24. These discrepancies
should have been addressed by an amendment to the March 24,
2017 Complaint. See RCFC 11(b). 
13

32a
On May 16, 2017, the Government filed an
Unopposed Motion For An Enlargement Of Time to
answer the March 24, 2017 Complaint. ECF No. 5.
On May 30, 2017, the court granted that Motion.
On July 24, 2017, the Government filed a
Second Unopposed Motion For An Enlargement Of
Time to answer the March 24, 2017 Complaint. ECF
No. 6. On July 26, 2017, the Government filed a
Motion For Leave To File Answer Out Of Time. ECF
No. 7. On July 28, 2017, the court granted both the
July 24, 2017 and July 26, 2017 Motions. On July 31,
2017, the Government filed an Answer. ECF No. 8.
On September 19, 2017, the parties filed a
Joint Preliminary Status Report. ECF No. 9.
On November 9, 2017, the court issued a
Scheduling Order setting a May 18, 2018 deadline
for the close of fact discovery and May 29, 2018 as
the trial date. ECF No. 13.
On December 7, 2017, Plaintiff filed a Status
Report requesting the court’s assistance in
“narrowing down, and perhaps resolving, the issues
in this case.” ECF No. 14 at 1.
On January 8, 2018, the Government filed a
Motion For Order Compelling Production Of
Documents. ECF No. 15. On January 10, 2018, the
parties filed a Joint Status Report requesting that
the court vacate the May 29, 2018 trial date. ECF
No. 16. On January 11, 2018, the court granted the
January 8, 2018 Motion To Compel. ECF No. 17.

33a
On March 12, 2018, the parties submitted a
Joint Status Report. ECF No. 18. On March 20,
2018, Plaintiff filed a letter requesting that the court
convene a discovery conference. ECF No. 22. On
March 27, 2018, the Government filed an Unopposed
Motion For An Enlargement Of Time to respond to
the March 20, 2018 letter. ECF No. 23. On April 2,
2018, the court granted the March 27, 2018 Motion.
ECF No. 24.
On April 2, 2018, Plaintiff filed a Motion To
Withdraw the March 20, 2018 letter. ECF No. 25.
That same day, the court granted the Motion To
Withdraw. On April 6, 2018, the parties filed a Joint
Status Report again requesting that the court vacate
the May 29, 2018 trial date. ECF No. 26. On April
10, 2018, the court issued a Scheduling Order
canceling the May 29, 2018 trial date and setting
deadlines for briefing on a motion for summary
judgment. ECF No. 27.
On June 27, 2018, the parties filed a
Stipulation Of Facts. ECF No. 28. That same day,
the Government filed a Motion For Summary
Judgment (“Gov’t Mot.”). ECF No. 29.
On July 24, 2018, Plaintiff filed a Response
And Cross-Motion For Summary Judgment (“Pl.
Resp.”). ECF No. 30. That same day, Plaintiff filed a
letter urging the court to consider a case Plaintiff
had omitted from its Response And Cross-Motion.
ECF No. 31.
On August 16, 2018, the Government filed an
Unopposed Motion For An Enlargement Of Time
And Motion For Leave To Exceed Page Limit. ECF

34a
No. 32. That same day, the court granted the August
16, 2018 Motion. ECF No. 33. On August 24, 2018,
the Government filed a Response And Reply In
Support Of Summary Judgment (“Gov’t Reply”).
ECF No. 34. On August 30, 2018, Plaintiff filed an
Unopposed Motion For An Enlargement Of Time to
file a Reply. ECF No. 35. That same day, the court
granted the August 30, 2018 Motion. ECF No. 36.
On October 4, 2018, Plaintiff filed a Reply In
Support Of The Cross-Motion For Summary
Judgment (“Pl. Reply”). ECF No. 37.
On November 8, 2018, the Government filed a
Notice Of Recent Decision to inform the court about
the decision of the United States District Court for
the Middle District of Florida in United States v.
Estate of Schoenfeld, No. 3:16-CV-1248-J-34PDB,
2018 WL 4599743 (M.D. Fla. Sept. 25, 2018). ECF
No. 38.
III.

DISCUSSION.
A.

Subject Matter Jurisdiction.

Subject matter jurisdiction is a threshold
issue that a court must determine at the outset of a
case. See Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 94–95 (1998) (“The requirement that
jurisdiction be established as a threshold matter
‘spring[s] from the nature and limits of the judicial
power of the United States’ and is ‘inflexible and
without exception.’”) (quoting Mansfield, C. &
L.M.R. Co. v. Swan, 111 U.S. 379, 382 (1884)).

35a
The Tucker Act authorizes the United States
Court of Federal Claims with jurisdiction to
adjudicate “any claim against the United States
founded either upon the Constitution, or any Act of
Congress or any regulation of an executive
department, or upon any express or implied contract
with the United States, or for liquidated damages in
cases not sounding in tort.” 28 U.S.C. § 1491(a)(1).
The United States Court of Appeals for the
Federal Circuit has held that the United States
Court of Federal Claims does not have jurisdiction to
adjudicate claims that arise under the Due Process
Clause of the Fifth Amendment to the United States
Constitution. See, e.g., Wheeler v. United States, 11
F.3d 156, 159 (Fed. Cir. 1993). But, in Norman v.
United States, 429 F.3d 1081 (Fed. Cir. 2005), our
appellate court recognized that the United States
Court of Federal Claims has jurisdiction to
adjudicate an illegal exaction, as it “involves a
deprivation of property without due process of law,
in violation of the Due Process Clause of the Fifth
Amendment to the Constitution.” Id. at 1095. “The
classic illegal exaction claim is a tax refund suit
alleging that taxes have been improperly collected or
withheld by the government.” Id. at 1095. Therefore,
to invoke the Tucker Act, a plaintiff must
demonstrate that a “statute or provision causing the
exaction itself provides, either expressly or by
necessary implication, that the remedy for its
violation entails a return of money unlawfully
exacted.” Id. (quotations omitted). In subsequent
cases, the United States Court of Appeals for the
Federal Circuit has clarified that “jurisdiction over
illegal exaction claims is subject to the
administrative refund scheme that Congress

36a
established in the Internal Revenue Code,” i.e., filing
an administrative claim for refund, and complying
with applicable statutory time limits. See Strategic
Hous. Fin. Corp. of Travis Cty. v. United States, 608
F.3d 1317, 1324 (Fed. Cir. 2010) (citing United
States v. Clintwood Elkhorn Min. Co., 553 U.S. 1, 4
(2008)); see also Taha v. United States, No. 20181879, 2018 WL 6600221, at *3 (Fed. Cir. Dec. 14,
2018) (summarizing the administrative refund
scheme).
Although the March 24, 2017 Complaint does
not invoke jurisdiction under the Due Process
Clause, it does allege that Plaintiff did not commit a
willful violation of 31 U.S.C. § 5314, and, even if
Plaintiff did commit a willful violation, the IRS
assessed an unlawful penalty in excess of $10,000.
Stip. ¶ 69. Therefore, if Plaintiff can establish that
her violation of 31 U.S.C. § 5314 was not willful, the
IRS’s penalty assessment ipso facto is contrary to
law and the court has jurisdiction to order the return
of those funds. See 28 U.S.C. § 1346(a);17 see also
Jarnagin v. United States, 134 Fed. Cl. 368, 375
(Fed. Cl. 2017) (determining that the United States
Court of Federal Claims has subject matter
jurisdiction to adjudicate a violation of 31 U.S.C.
§ 5321(a)(5) (2004)).18

See Court Appendix, infra, for the text of 28 U.S.C.
§ 1346(a). Section 1346 complements, but does not displace, the
Tucker Act. See Hinck v. United States, 64 Fed. Cl. 71, 76 (Fed
Cl. 2005), aff’d, 446 F.3d 1307 (Fed. Cir. 2006), aff’d, 550 U.S.
501 (2007). 
17

In Jarnagin, Plaintiffs did not appeal the decision of
the United States Court of Federal Claims and the time to file
a Notice of Appeal has passed. 
18

37a
The September 8, 2016 Claim For Refund19 is
sufficient to satisfy Congress’s administrative refund
scheme. See 26 U.S.C. § 7422(a) (“No suit or
proceeding shall be maintained . . . until a claim for
refund or credit has been duly filed[.]”); see also 26
U.S.C. § 6511(a) (establishing time limits for refund
claims).20
For these reasons, the court has determined
that it has subject matter jurisdiction to adjudicate
the claim alleged in the March 24, 2017 Complaint.
B.

Standing.

The United States Court of Federal Claims,
although an Article I court, “applies the same
standing requirements enforced by other federal
courts created under Article III.” Weeks Marine, Inc.
v. United States, 575 F.3d 1352, 1359 (Fed. Cir.
2009). Article III of the United States Constitution
limits the jurisdiction of federal courts to “Cases”
and “Controversies.” Bank of Am. Corp. v. City of

The September 8, 2016 Claim For Refund was
attached as an Exhibit to the March 24, 2017 Complaint. The
court may consider that Exhibit in ruling on the June 27, 2018
Motion For Summary Judgment. See RCFC 56(c)(3) (“The court
need consider only the cited materials, but it may consider
other materials in the record.”). 
19

See Court Appendix, infra, for the text of 26 U.S.C.
§ 6511(a). Plaintiff filed the September 8, 2016 Claim For
Refund approximately one month after she paid the IRS the
full amount of the assessed penalty, well within the 2-year and
3-year time limits set by 26 U.S.C. § 6511(a). Compare Compl.
Ex. A with Stip. ¶ 70. Therefore, the court does not need to
determine whether Section 6511 applies to an administrative
claim requesting refund of a FBAR penalty assessed, pursuant
to 31 U.S.C. § 5321(a)(5). 
20

38a
Miami, Fla., 137 S. Ct. 1296, 1302 (2017). To
demonstrate the existence of a case or controversy, a
plaintiff must show “an ‘injury in fact’ that is ‘fairly
traceable’ to the defendant’s conduct and ‘that is
likely to be redressed by a favorable judicial
decision.’” Id. (quoting Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1547 (2016)).
The IRS assessed a $697,229 penalty against
Plaintiff. Stip. ¶ 69. Plaintiff paid that penalty in
full. Compl. ¶ 8. That is sufficient to establish an
injury in fact. See Janus v. Am. Fed’n of State, Cty.,
& Mun. Employees, Council 31, 138 S. Ct. 2448, 2462
(2018) (holding that an employee had standing to
challenge agency fees automatically deducted from
his wages). Plaintiff’s monetary injury was “fairly
traceable” to the IRS’s penalty assessment. See
Spokeo, 136 S. Ct. at 1547. And, if the court orders
the IRS to refund the penalty, that will redress
Plaintiff’s alleged monetary injury. Id.
For these reasons, the court has determined
that Plaintiff has standing to seek an adjudication of
the claims alleged in the March 24, 2017 Complaint.
C.

Standard Of Review.

Rule 56 of the United States Court of Federal
Claims (“RCFC”) authorizes a party to file a motion
for summary judgment, that a court should grant “if
the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” RCFC 56. “A genuine
dispute exists when the evidence is such that a
reasonable [factfinder] could return a verdict for the
nonmoving party.” 8x8, Inc. v. United States, 854

39a
F.3d 1376, 1380 (Fed. Cir. 2017) (citations omitted).
“A material fact is one that might affect the outcome
of the case.” Id. (citations omitted). “The party
seeking summary judgment has the initial burden of
establishing that there is no genuine dispute as to
any material fact.” Id. In addition, the court must
“draw all factual inferences in favor of the
nonmovant.” Zafer Taahhut Insaat ve Ticaret A.S. v.
United States, 833 F.3d 1356, 1361 (Fed. Cir. 2016).
D.

Whether Plaintiff Willfully Failed
To File A Foreign Bank Account
Report.

The parties stipulated that Plaintiff failed to
file a FBAR for 2007. Stip. ¶ 48. In addition, Plaintiff
admitted that she is “not disput[ing] the FBAR
penalty for the HSBC account.” Def. Ex. 30 at 154.
Plaintiff also admitted that she “is not seeking
recovery of the 2007 FBAR penalty imposed for the
HSBC account.” Def. Ex. 30 at 154. As such, the
court does not need to determine whether the
penalty assessed by the IRS against the HSBC
account was lawful. See RCFC 36(b) (“A matter
admitted under this rule is conclusively established
unless the court, on motion, permits the admission to
be withdrawn or amended.”). Therefore, the
threshold issue the court must determine is whether
Plaintiff’s failure to file a FBAR for the 2007 tax
year was “willful.”
1.

The Government’s Motion
For Summary Judgment.

The Government argues that summary
judgment is appropriate to resolve “willfulness,”

40a
because Plaintiff “(1) knew that she had funds in a
Swiss bank account and in a French bank account;
and (2) did not report her interest in the accounts on
a timely FBAR, but despite that knowledge, falsely
represented on her income-tax return that she had
no foreign bank accounts.” Gov’t Mot. at 2. In
addition, Plaintiff: “manag[ed] her foreign accounts
with the help of her UBS bankers;” “did not
maintain the account in her own name;” “hid the
account from the United States by not investing in
U.S. securities;” and “failed to tell her accountant
that she had a foreign bank account.” Gov’t Mot. at
2–3.
Then-applicable IRS regulations required
Plaintiff to file a FBAR for 2007, on or before June
30, 2008. Gov’t Mot. 17. Plaintiff failed to file a
FBAR on that date, either for the UBS or HSBC
accounts. Gov’t Mot. 17. A violation of 31 U.S.C.
§ 5321(a)(5) (2004) is “willful[]” where a taxpayer: (1)
violates the law “voluntarily rather than
accidentally;” (2) is “willfully blind” to the legal duty
to report; or (3) engages in conduct that is in
“reckless disregard” of the legal duty to report. Gov’t
Mot. at 18. Plaintiff’s conduct was willful under each
of these standards. Gov’t Mot. at 18.
First, Plaintiff’s failure to report was
voluntary, because she signed her 2007 federal tax
return knowing of the obligation to report. Gov’t
Mot. 19–23. Plaintiff had actual knowledge of the
filing requirement, but decided not to inform the IRS
about the UBS account. Gov’t Mot. at 21. In addition,
Plaintiff maintained a numbered account and
instructed UBS not to send any account-related
correspondence to the United States. Gov’t Mot. at

41a
22. And, Plaintiff did not inform her accountant
about the existence of her foreign bank accounts.
Gov’t Mot. at 22.
Second, as a matter of law, a taxpayer is
charged with knowledge of the representations made
on federal tax returns. Gov’t Mot. at 19 (citing
Jarnagin, 134 Fed. Cl. at 378). Plaintiff also had
knowledge of the FBAR requirement posited by
Question 7(a) on Form 1040 of her 2007 income tax
return. Gov’t Mot. at 20. In addition, Plaintiff was
“willfully blind” to the requirement that she file a
FBAR. Gov’t Mot. at 23–25. To be “willfully blind,” “a
[person] must subjectively believe that there is a
high probability that a fact exists and the [person]
must take deliberate actions to avoid learning that
fact.” United States v. McBride, 908 F. Supp. 2d
1186, 1210 (D. Utah 2012) (modifications in
original). Plaintiff admitted that she never read her
tax returns or any of the documents she signed
related to the UBS account. Stip. ¶ 46. Therefore,
Plaintiff was “willfully blind” of her duty to comply
with IRS reporting requirements. Gov’t Mot. at 24.
In sum, Plaintiff engaged in reckless
disregard of the statutory duty to: file a FBAR;
answer Question 7(a) accurately on her 2007 income
tax return; and ask her accountant for advice on any
reporting requirements or other federal tax issues
that might arise in connection with the UBS
account. Gov’t Mot. at 25–28. Therefore, Plaintiff’s
conduct was “willful.” Gov’t Mot. at 8.

42a
2.

Plaintiff’s
Response
And
Cross-Motion For Summary
Judgment.

Plaintiff responds that “willfulness” is a
“voluntary, intentional violation of a known legal
duty.” Pl. Resp. at 12. The Government’s
interpretation of 31 U.S.C. § 5321 would render the
term “willful” superfluous, because every taxpayer
who fails to file a FBAR does so willfully. Pl. Resp. at
13. In this case, Plaintiff never read her tax returns
and had no knowledge of the FBAR or other federal
tax reporting requirements. Pl. Resp. at 17.
“[C]onduct properly characterized as willful must
meet a higher standard than a simple failure to
check the box on the tax return showing the
existence of a foreign account, pay taxes on the
income[,] and file a FBAR.” Pl. Resp. at 14. In
addition, each case cited by the Government
“involved conduct significantly more egregious than
that evidenced here.” Pl. Resp. at 15.
I.R.M.
§
4.26.16.6.5.1,
Willful
FBAR
Violations–Evidence
(Nov.
6,
2015)
defines
“willfulness” as “knowledge of the reporting
requirements
and [a] conscious choice not to
comply.” Pl. Resp. at 18. Plaintiff was not aware that
she had a legal duty to report her foreign bank
accounts to the IRS until 2008. Pl. Resp. at 13–14.
Therefore, she made no conscious choice not to
comply. Pl. Resp. at 14. In addition, I.R.M.
§ 4.26.16.6.5.2, Willful FBAR Violations– Defining
Willfulness (Nov. 6, 2015) provides a list of
documents that the IRS references to determine
whether a failure to comply with reporting

43a
requirements is “willful;” none of those documents,
however, were proffered by the Government in this
case. Pl. Resp. at 19–20. Congress created a higher
penalty for willful violations to punish “bad actors.”
Pl. Resp. at 20. Plaintiff is not a bad actor; she did
not use the UBS account for any illegal activities. Pl.
Resp. at 20.
3.

The Government’s Reply And
Response To Plaintiff’s CrossMotion.

The Government replies that Plaintiff’s
definition of “willfulness” concerns criminal activity;
a less exacting standard applies to activity that is
civil in nature. Gov’t Reply at 3. A number of courts
have determined that a willful failure to file a FBAR
evidences recklessness and willful blindness. Gov’t
Reply at 4 (citing United States v. Williams, 489 F.
App’x 655, 658 (4th Cir. 2012) (holding that “willful
blindness” in certain circumstances “may be
inferred”)). Moreover, Plaintiff’s failure to report the
UBS account on her federal income tax returns was
part of a broader effort to conceal the account’s
existence from the IRS. Gov’t Reply at 5. Plaintiff
designated the UBS account as a numbered account,
elected not to receive account-related correspondence
in the United States, and instructed her son that the
account was to remain secret. Gov’t Reply at 5. It
does not make any difference if Plaintiff did not read
her tax returns; as a matter of law, a taxpayer is
charged with constructive knowledge of the contents
of a signed income tax return. Gov’t Reply at 7.
Likewise, the fact that others have committed more

44a
egregious FBAR violations does not shield Plaintiff
from liability. Gov’t Reply at 8–9.
4.

Plaintiff’s Reply.

Plaintiff reiterates that the Government’s
position would render most FBAR violations as
willful, contrary to Congress’s intent in establishing
a multi-tiered system of penalties. Pl. Reply at 3–5.
More importantly, when the IRS assessed a penalty
against Plaintiff, it did not proffer any evidence that
she knew about the reporting requirement prior to
2008. Pl. Reply at 6.
5.

The Court’s Resolution.

On October 22, 2004, Congress authorized the
Secretary of the Treasury to impose a “civil money
penalty” for a violation of 31 U.S.C. § 5314, with a
heightened penalty reserved for “willful[]” violations.
See 31 U.S.C. § 5321(a)(5)(C)(i) (2004). The United
States Supreme Court has held that, since
“willfulness is a statutory condition of civil liability,”
it is “generally taken[] to cover not only knowing
violations of a standard, but reckless ones as well.”
Safeco Ins. Co. of Am. v. Burr, 551 U.S. 47, 57 (2007)
(holding that a “willful” violation of the Fair Credit
Reporting Act, 15 U.S.C. § 1681n, includes reckless
conduct). Therein, the United States Supreme Court
defined “recklessness” as “violating an objective
standard: action entailing an unjustifiably high risk
of harm that is either known or so obvious that it
should be known.” Id. at 68 (internal quotations
omitted); see also Godfrey v. United States, 748 F.2d
1568, 1577 (Fed. Cir. 1984) (holding in the context of

45a
federal tax law that “willful conduct” includes “a
reckless disregard of an obvious and known risk that
taxes might not be remitted”) (citations and
quotation marks omitted).
On November 6, 2015, the IRS issued
I.R.M. §§ 4.26.16.6.5.1 and 4.26.16.6.5.2. I.R.M.
§ 4.26.16.6.5.1 defined “willfulness” as “knowledge of
the reporting requirements and [a] conscious choice
not to comply.”21 I.R.M. § 4.26.16.6.5.2 identified
thirteen documents that “may be helpful” to the IRS
in “establishing willfulness.”22 Plaintiff argues that
any violation of 31 U.S.C. § 5314 was not “willful,”
because the Government did not proffer any of the
documents listed in I.R.M. § 4.26.16.6.5.2 in this
case. Pl. Resp. at 19–20. There are two problems
with
Plaintiff’s
argument.
First,
I.R.M.
§ 4.26.16.6.5.2 does not state that the existence of
one of the listed documents is a prerequisite to
establishing a willful FBAR violation. Second, the
Government did proffer several of the listed
documents, i.e., bank statements from the UBS
account and the IRS examiner’s work product. See
I.R.M. § 4.26.16.6.5.2(2)(a), (m) (Nov. 6, 2015).
The relevant stipulated facts in this case are
as follows:
x

Plaintiff did not disclose the
existence of the UBS account to


See Court Appendix, infra, for the text of I.R.M.
§ 4.26.16.6.5.1.

22 See Court Appendix, infra, for the text of I.R.M.
§ 4.26.16.6.5.2. 
21

46a
her
accountant
until
approximately 2010. Stip. ¶ 43.
x

Plaintiff
never
asked
her
accountant how to properly
report
foreign
investment
income. Stip. ¶ 44.

x

Plaintiff did not review her
individual income tax returns for
accuracy for tax years 2003
through 2008. Stip. ¶ 46.

x

Plaintiff answered “No” to
Question 7(a) on her 2007 income
tax return, falsely representing
under penalty of perjury, that
she had no foreign bank
accounts. Stip. ¶ 48.

In the court’s judgment, stipulations ¶¶ 46
and 48 together evidence conduct by Plaintiff, as a
co-owner of the UBS account that exhibited a
“reckless disregard” of the legal duty under federal
tax law to report foreign bank accounts to the IRS by
filing a FBAR. See Godfrey, 748 F.2d at 1577; see
also Norman v. United States, 138 Fed. Cl. 189, 194
(Fed. Cl. 2018) (determining that a taxpayer was
“put on inquiry notice of the FBAR requirement
when she signed her tax return”) (internal
quotations omitted), appeal docketed, No. 18-2408
(Fed. Cir. Sept. 18, 2018); see also Jarnagin, 134
Fed. Cl. at 378 (“A taxpayer who signs a tax return
will not be heard to claim innocence for not having
actually read the return, as he or she is charged with
constructive knowledge of its contents.”) (citations

47a
omitted).23 Although Plaintiff had no legal duty to
disclose information to her accountant or to ask her
accountant about IRS reporting requirements, these
additional undisputed facts do not affect the court’s
determination that Plaintiff’s conduct in this case
was “willful.”
For these reasons, the court has determined,
viewing the evidence in the light most favorable to
Plaintiff, that there is no genuine issue of material
fact that Plaintiff violated 31 U.S.C. § 5314 and that
her conduct was “willful.” See 31 U.S.C. § 5321(a)(5)
(2004); see also RCFC 56.
E.

Whether The Internal Revenue Service
Abused Its Discretion In Assessing
Plaintiff A Civil Penalty Of $697,229.
1.

The Government’s Motion
Summary Judgment.

For

The Government argues that Congress
amended 31 U.S.C. § 5321(a)(5) in 2004 to increase
the maximum penalty for FBAR violations, and

A May 23, 2018 Memorandum the IRS Office of Chief
Counsel distributed to IRS program managers states that,
“[t]he standard for willfulness under 31 U.S.C. § 5321(a)(5)(C)
is the civil willfulness standard, and includes not only knowing
violations of the FBAR requirements, but willful blindness to
the FBAR requirements as well as reckless violations of the
FBAR requirements.” Burden of Proof and Standard for
Willfulness Under 31 U.S.C. § 5321(a)(5)(C), PMTA-2018-13, at
1 (May 23, 2018). For a comprehensive discussion of how other
federal courts have construed whether a FBAR violation is
“willful,” see Hale E. Sheppard, “What Constitutes A ‘Willful’
FBAR Violation?,” 129 J. TAX’N 24 (Nov. 2018) (collecting
cases). 
23

48a
thereby superseded 31 C.F.R. § 1010.820(g)(2). Gov’t
Mot. at 34. Thereafter, if the IRS determined a
willful violation of 31 U.S.C. § 5321(a)(5) (2004)
occurred, the IRS had authority to impose a civil
penalty “up to the greater of $100,000 or 50% of the
balance in the account at the time of the violation.”
Gov’t Mot. at 28.
In this case, the IRS considered I.R.M. Exhibit
4.26.16–2, Normal FBAR Penalty Mitigation
Guidelines For Violations Occurring After October
22, 2004, in calculating the penalty to be assessed to
Plaintiff regarding the UBS and HSBC accounts.
Under those Guidelines, the IRS properly exercised
discretion in finding that Plaintiff’s HSBC account
should be treated as a Mitigation Level of II; but
Plaintiff’s UBS account should be treated as a
Mitigation Level of IV. Gov’t Mot. at 30. The
penalties that the IRS assessed were “within the
range authorized by Congress.” Gov’t Mot. at 33.24
2.

Plaintiff’s Response And CrossMotion For Summary Judgment.

Plaintiff responds that the IRS abused its
discretion when it assessed a penalty for the 2007
FBAR violation, because it did not consider factors
other than the size of the account, in determining
the penalty. Pl. Resp. at 22. The IRS also abused its

In that regard, the Government suggests that the
non-precedential decision of the United States District Court
for the Western District of Texas in United States v. Colliot, No.
16-1281, 2018 WL 2271381 (W.D. Tex. May 16, 2018),
determining that 31 C.F.R. § 1010.820(g)(2) continues to cap
FBAR penalties at $100,000 is erroneous and should not be
followed. Gov’t Mot. at 35–37. 
24

49a
discretion when it found that Plaintiff was the “sole
beneficiary” of the UBS account after her father’s
death, since she was a co-owner with her mother. Pl.
Resp. at 23. In addition, the IRS abused its
discretion when it found that Plaintiff did not have
any personal connection to Switzerland, when she
did have a connection by “inherit[ing] an account
domiciled there.” Pl. Resp. at 23. And, the IRS
abused its discretion when it found that Plaintiff
“actively managed” the UBS account. Pl. Resp. at 23.
In fact, Plaintiff resisted her husband’s urgings to
invest the funds in the UBS account more
aggressively and followed her father’s instructions
that the account be used only in an emergency. Pl.
Resp. at 23– 24.
The IRS’s assessment of the maximum
penalty against Plaintiff also was an abuse of
discretion, because the IRS did not adhere to
regulations that set the maximum penalty of
$100,000, but were not changed after Congress
amended 31 U.S.C. § 5321(a)(5) in 2004. Pl. Resp. at
28. And, the penalty assessed was an “excessive
fine,” in violation of the Eighth Amendment to the
United States Constitution. Pl. Resp. at 26–27.
3.

The Government’s Reply And
Response To Plaintiff’s CrossMotion.

The Government replies that the IRS properly
utilized I.R.M. § 4.26.16.3.6 in evaluating Plaintiff’s
FBAR violation and determined that she satisfied
the requirements for a mitigated penalty. Gov’t
Reply at 10. But, the IRS declined to mitigate the

50a
maximum statutory penalty assessed in 2016, with
respect to the UBS account, because of the eight
factual determinations made by the IRS examiner.
Gov’t Reply at 10–11. In addition, Plaintiff did “not
explain how the IRS’s allegedly erroneous findings
would affect the outcome of the decision-making
process.” Gov’t Reply at 11. For example, the fact
that Plaintiff was added as a co-owner of the UBS
account does not establish a personal connection
with Switzerland. Gov’t Reply at 12. Plaintiff was
involved in management of the UBS account, as
evidenced by meetings she attended with
representatives from the bank annually to review
investments. Gov’t Reply at 13. In addition,
Plaintiff’s April 15, 2005 “Verification of the
beneficial owner’s identity” evidences that she was
the sole beneficiary of the UBS account. Def. Ex. 4.
The IRS penalty assessment also did not
violate the Eighth Amendment to the United States
Constitution, because the penalty was not a “fine,”
nor was it “excessive.” Gov’t Reply 15–28. The IRS
applied the maximum penalty established by
Congress at 31 U.S.C. § 5321(a)(5)(C)(i) (2004). Gov’t
Reply at 29. As a matter of law, when Congress
increased the maximum penalty above $100,000 on
October 22, 2004, 31 C.F.R. § 1010.820(g)(2) no
longer had any effect. Gov’t Reply 30–34.
4.

Plaintiff’s Reply.

Plaintiff replies that the IRS’s penalty
assessment violated the Eighth Amendment to the
United States Constitution, because it was a
disproportionate fine that was punitive in nature. Pl.

51a
Reply at 8–11. When Congress increased the
maximum penalty that could be assessed for FBAR
violations, it did not mandate that a penalty, greater
than $100,000, be assessed in any individual case.
Pl. Reply at 13. The IRS is bound by the agency’s
regulations and the IRS’s decision not to remove the
pre-2004 regulations from the Code of Federal
Regulations was not unintentional; Plaintiff is
entitled to rely on those regulations. Pl. Reply at 14–
15.
5.

The Court’s Resolution.

On July 15, 2016, the IRS assessed a
maximum penalty against Plaintiff with respect to
the UBS account, pursuant to 31 U.S.C.
§ 5321(a)(5)(C)(i) (2004), and properly referenced
I.R.M. § 4.26.16.3.6 in doing so. Irons Decl. 035.
Plaintiff does not identify why that assessment
violated any statute or applicable regulation. See
generally Compl.; Pl. Resp.; Pl. Reply. Instead,
Plaintiff argues that the IRS’s decision was an abuse
of discretion, because: (1) Plaintiff was not the “sole
beneficiary” of the UBS account; (2) Plaintiff did
have a personal connection to Switzerland; (3)
Plaintiff did not “actively manage” the UBS account;
and (4) the IRS did not rely on the documents listed
in I.R.M. § 4.26.16.6.5.2 that evidence willfulness. Pl.
Resp. at 23–24. Therefore, Plaintiff reasons that she
is entitled to rely on the $100,000 maximum penalty
set forth in 31 U.S.C. §5321(a)(5) (2003). Pl. Resp. at
23–24.
As to the ownership of the UBS account,
although the record evidences that Plaintiff was not

52a
the “sole beneficiary” of the UBS account, Plaintiff
represented that she was the sole beneficiary in an
April 15, 2005 “Verification of the beneficial owner’s
identity.” Def. Ex. 4. Assuming arguendo that the
IRS erroneously determined Plaintiff was the sole
beneficiary, Plaintiff nevertheless failed to establish
why being only a co-owner necessarily rendered the
IRS’s penalty assessment unlawful or an abuse of
discretion. Compare Pl. Resp. at 23 with Irons Decl.
at 030.
As to the IRS’s finding that Plaintiff did not
have a personal connection to Switzerland, as a
matter of law, only having a property interest in a
bank account is not sufficient to establish a
“significant contact with a foreign country.” See 26
C.F.R. § 301.7701(b)-2(d)(1).25
As to Plaintiff’s role in managing the UBS
account, the parties stipulated that between 1998
and 2008, Alice Kimble met with representatives of
UBS in New York at least six times and met with a
UBS representative in Switzerland at least once.
Stip. ¶¶ 28, 29. Therefore, the IRS did not abuse its
discretion in finding that Plaintiff actively was
involved with the UBS account. Irons Decl. at 032.
As to the documents listed in I.R.M. § 4.26.16.6.5.2,
the court previously addressed this issue at D.5,
supra.
Plaintiff is also no longer entitled to be
assessed a maximum civil penalty of $100,000, as set

See Court Appendix, infra, for the text of 26 C.F.R.
§ 301.7701(b)-2(d)(1).

25

53a
forth in 31 U.S.C. § 5321(a)(5) (2003).26 On October
22, 2004, Congress enacted a new statute that
increased the statutory maximum penalty for a
“willful” violation to “the greater of [] $100,000, or []
50 percent of the . . . balance in the account at the
time of the violation.” See American Jobs Creation
Act of 2004, Pub. L. No. 108-357, 118 Stat. 1418,
1586, § 821 (Oct. 22, 2004) (“Jobs Creation Act”).
And, on July 1, 2008, the IRS issued I.R.M.
§ 4.26.16.4.5.1, that stated: “At the time of this
writing, the regulations at [31 C.F.R. § 1010.820]
have not been revised to reflect the change in the
willfulness penalty ceiling.” I.R.M. § 4.26.16.4.5.1.
The IRS, however, warned that, “the statute [i.e., the
Jobs Creation Act] is self-executing and the new
penalty ceilings apply.” I.R.M. § 4.26.16.4.5.1.
Although, the Jobs Creation Act is inconsistent with
31 C.F.R. § 1010.820(g)(2), it is settled law that an
agency’s regulations “must be consistent with the
statute under which they are promulgated.” United
States v. Larionoff, 431 U.S. 864, 873 (1977). Since
the civil penalty amount for a “willful” violation in
31 U.S.C. § 5321(a)(5) (2003) was replaced with 31
U.S.C. § 5321(a)(5)(C)(i) (2004), the April 8, 1987
regulations are “no longer valid.” Norman, 138 Fed.
Cl. at 196.
The court’s research has found two recent
United States District Court cases determining that,
although the IRS theoretically may assess a penalty
greater than $100,000 for a FBAR violation
committed after 2004, the IRS is still bound by the
maximum penalty in the pre-2004 statute. See

See Court Appendix, infra, for the text of 31 U.S.C.
§ 5321(a)(5) (2003). 
26

54a
Colliot, 2018 WL 2271381, at *3;27 United States v.
Wahdan, 325 F. Supp. 3d 1136, (D. Colo. 2018).28
The reasoning of these cases, however, conflicts with

In Colliot, the United States District Court for the
Western District of Texas determined that 31 C.F.R.
§ 1010.820(g)(2) survived the enactment of the Jobs Creation
Act, because “[r]ules issued via notice-and-comment
rulemaking must be repealed via notice-and-comment
rulemaking.” 2018 WL 2271381, at *3 (citing Perez v. Mortg.
Bankers Ass’n, 135 S. Ct. 1199, 1205 (2015)). In Perez, the
United States Supreme Court held that agencies must “use the
same procedures when they amend or repeal a rule as they
used to issue the rule in the first instance.” 135 S. Ct. at 1206.
The Jobs Creation Act, however, is not an agency rule and
Congress has authority prospectively to alter the effect of
agency regulations. See Robertson v. Seattle Audubon Soc., 503
U.S. 429, 438–40 (1992) (holding that a statutory amendment
affecting ongoing litigation over forest management did not
violate Article III of the United States Constitution, because it
“compelled changes in law, not findings or results under old
law”). 
27

In Wahdan, the United States District Court for the
District of Colorado determined that the Secretary of the
Treasury adjusted the maximum FBAR penalty for inflation
several times in the past decade. See 325 F. Supp. 3d at 1140.
According to that court, “[t]his suggests that the Secretary was
aware of the penalties available under 31 U.S.C. § 5321(a)(5)(C)
and elected to continue to limit the IRS’[s] authority to impose
penalties to $100,000.” Id. Although this inference is plausible,
it is more likely that the Secretary of the Treasury determined
that I.R.M. § 4.26.16.4.5.1 correctly determined that the Jobs
Creation Act was “self-executing.” Regardless, any legitimate
inference that may be drawn from a series of routine inflation
adjustments after 2004 does not alter the text of the Jobs
Creation Act.
28

Neither of the aforementioned United States District
Court decisions explain why the Jobs Creation Act should be
construed to retain the $100,000 maximum penalty set forth at
31 C.F.R. § 1010.820(g)(2), but supersede the remainder of the
regulation.

55a
the decision of the United States Court of Appeals
for the Federal Circuit in Barseback Kraft AB v.
United States, 121 F.3d 1475 (Fed. Cir. 1997). In
that case, nuclear energy companies sued to enforce
contracts for uranium with the United States
Department of Energy (“DOE”). Id. at 1477. The
contracts provided that prices would be set in
accordance with “DOE pricing policy for such
services.” Id. at 1478. After the parties executed the
contracts, Congress enacted legislation that
transferred responsibility for administering uranium
sales to a new federal agency, and “changed the
government’s pricing strategy from one based on
recovering just its costs to one aimed at profit
maximization.” Id. The uranium companies argued
that the new agency was bound by DOE’s pricing
regulations, but the United States Court of Appeals
for the Federal Circuit held that the “DOE could not
have had any valid uranium enrichment pricing
policy in 1993 and 1994[,] because Congress had
stripped it of its authority to sell uranium
enrichment services.” Id. at 1480. “The fact that
DOE’s [pricing regulations] had not been formally
withdrawn from the Code of Federal Regulations
[did] not save them from invalidity.” Id. (emphasis
added). Like the legislation that stripped DOE of
authority over uranium pricing, the Jobs Creation
Act replaced the prior penalty for willful violations of
federal tax law in 31 U.S.C. § 5321(a)(5) (2003),
thereby nullifying any inconsistent regulations
governing the pre-2004 statute.
For these reasons, the court has determined,
viewing the evidence in the light most favorable to
Plaintiff, that there is no genuine issue of material

56a
fact as to whether the IRS abused its discretion,
when it assessed a civil penalty against Plaintiff of
$697,229, i.e., 50 percent of the balance in the UBS
account in 2007. See 31 U.S.C. § 5321(a)(5)(C)(i)
(2004); see also RCFC 56.29
IV.

CONCLUSION.

For the reasons discussed herein, the June 27,
2018 Motion For Summary Judgment is granted; the
July 24, 2018 Cross-Motion For Summary Judgment
is denied. The Clerk of Court is directed to enter
judgment for the Government.
IT IS SO ORDERED.
s/ Susan G. Braden
SUSAN G. BRADEN
Senior Judge


The court does not need to address Plaintiff’s
argument that the penalty assessment violated the Eighth
Amendment to the United States Constitution, because the
March 24, 2017 Complaint did not allege such a claim. See
Casa de Cambio Comdiv S.A., de C.V. v. United States, 291
F.3d 1356, 1366 (Fed. Cir. 2002) (“No mention of this theory
appears in [Plaintiff’s] complaint. Under the circumstances, we
hold that [Plaintiff] waived any claim it may have against the
government based on such a theory.”). In any event, the only
other court that considered this issue determined that the
FBAR penalty was not punitive. See Estate of Schoenfeld, 2018
WL 4599743, at *11 (determining that the FBAR penalty is
“remedial,” not “penal”). 
29

57a
COURT APPENDIX
$

Relevant Statutes.

26 U.S.C. § 6511(a) provides:
Claim for credit or refund of an
overpayment of any tax imposed by this
title in respect of which tax the
taxpayer is required to file a return
shall be filed by the taxpayer within 3
years from the time the return was filed
or 2 years from the time the tax was
paid, whichever of such periods expires
the later, or if no return was filed by
the taxpayer, within 2 years from the
time the tax was paid. Claim for credit
or refund of an overpayment of any tax
imposed by this title which is required
to be paid by means of a stamp shall be
filed by the taxpayer within 3 years
from the time the tax was paid.
26 U.S.C. § 6511(a).
31 U.S.C. § 5314 provides:
(a)
Considering the need to avoid
impeding or controlling the export or
import of monetary instruments and
the
need
to
avoid
burdening
unreasonably a person making a
transaction with a foreign financial
agency, the Secretary of the Treasury
shall require a resident or citizen of the



58a
United States or a person in, and doing
business in, the United States, to keep
records, file reports, or keep records and
file reports, when the resident, citizen,
or person makes a transaction or
maintains a relation for any person
with a foreign financial agency. The
records and reports shall contain the
following information in the way and to
the extent the Secretary prescribes:
(1)
the identity and address of
participants in a transaction or
relationship.
(2)
the legal capacity in which
a participant is acting.
(3)
the identity of real parties
in interest.
(4)
a
description
transaction.
(b)

of

the

The Secretary may prescribe—
(1)
a reasonable classification
of persons subject to or exempt
from a requirement under this
section or a regulation under this
section;
(2)
a foreign country to which
a requirement or a regulation
under this section applies if the



59a
Secretary decides applying the
requirement or regulation to all
foreign countries is unnecessary
or undesirable;
(3)
the
magnitude
of
transactions
subject
to
a
requirement or a regulation
under this section;
(4)
the kind of transaction
subject to or exempt from a
requirement or a regulation
under this section; and
(5)
other
matters
the
Secretary considers necessary to
carry out this section or a
regulation under this section.
(c)
A person shall be required to
disclose a record required to be kept
under this section or under a regulation
under this section only as required by
law.
31 U.S.C. § 5314.
31 U.S.C. § 5321(a)(5) provides:
(A)

Penalty authorized.—

The Secretary of the Treasury may
impose a civil money penalty on any
person who violates, or causes any



60a
violation of, any provision of section
5314.
(B)

Amount of penalty.—
L

In general.—

Except
as
provided
in
subparagraph (C), the amount of
any civil penalty imposed under
subparagraph (A) shall not
exceed $10,000.
LL 
Reasonable
cause
exception.—No penalty shall be
imposed under subparagraph (A)
with respect to any violation if—
,
such violation was
due to reasonable cause,
and
,,  the amount of the
transaction or the balance
in the account at the time
of the transaction was
properly reported.
(C) Willful violations.—In the case of
any person willfully violating, or
willfully causing any violation of, any
provision of section 5314—



61a
L
the maximum penalty
under subparagraph (B)(i) shall
be increased to the greater of—
(I) $100,000, or
(II) 50 percent of the
amount determined under
subparagraph (D), and
LL 
subparagraph (B)(ii) shall
not apply.
31 U.S.C. § 5321(a)(5) (2004).
31 U.S.C. § 5321(a)(5) (2003) provided:
Foreign financial agency transaction
violation.—
(A) Penalty authorized.—The
Secretary of the Treasury may
impose a civil money penalty on
any person who willfully violates
or any person willfully causing
any violation of any provision of
section 5314.
(B) Maximum
amount
limitation.—The amount of any
civil money penalty imposed
under subparagraph (A) shall not
exceed—



62a
(i)
in the case of
violation of such section
involving a transaction,
the greater of—
(I)
the
amount
(not
to
exceed
$100,000) of the
transaction; or
(II) $25,000; and
(ii) in the case of
violation of such section
involving a failure to
report the existence of an
account or any identifying
information required to be
provided with respect to
such account, the greater
of—
(I)
an
amount
(not
to
exceed
$100,000) equal to
the balance in the
account at the time
of the violation; or
(II) $25,000.
31 U.S.C. § 5321(a)(5) (2003).



63a
28 U.S.C. § 1346(a) provides:
The district courts shall have original
jurisdiction, concurrent with the United
States Court of Federal Claims, of:
(1)
Any civil action against the
United States for the recovery of any
internal-revenue tax alleged to have
been erroneously or illegally assessed or
collected, or any penalty claimed to
have been collected without authority
or any sum alleged to have been
excessive or in any manner wrongfully
collected under the internal-revenue
laws;
(2)
Any other civil action or claim
against the United States, not
exceeding $10,000 in amount, founded
either upon the Constitution, or any Act
of Congress, or any regulation of an
executive department, or upon any
express or implied contract with the
United States, or for liquidated or
unliquidated damages in cases not
sounding in tort, except that the district
courts shall not have jurisdiction of any
civil action or claim against the United
States founded upon any express or
implied contract with the United States
or for liquidated or unliquidated
damages in cases not sounding in tort
which are subject to sections 7104(b)(1)
and 7107(a)(1) of title 41. For the



64a
purpose of this paragraph, an express
or implied contract with the Army and
Air Force Exchange Service, Navy
Exchanges, Marine Corps Exchanges,
Coast Guard Exchanges, or Exchange
Councils of the National Aeronautics
and Space Administration shall be
considered an express or implied
contract with the United States.
28 U.S.C. § 1346(a).
%
Relevant Internal Revenue Service
Regulations.
26 C.F.R. § 301.7701(b)-2(d)(1) provides
that:

In general. For purposes of section
7701(b) and the regulations under that
section, an alien individual will be
considered to have a closer connection
to a foreign country than the United
States if the individual or the
Commissioner establishes that the
individual
has
maintained
more
significant contacts with the foreign
country than with the United States. In
determining whether an individual has
maintained more significant contacts
with a foreign country than the United
States, the facts and circumstances to
be considered include, but are not
limited to, the following -



65a
L
The location of the
individual’s permanent home;
LL 
The location of the
individual’s family;
LLL  The location of personal
belongings, such as automobiles,
furniture, clothing and jewelry
owned by the individual and his
or her family;
LY  The location of social,
political, cultural or religious
organizations with which the
individual
has
a
current
relationship;
Y
The location where the
individual conducts his or her
routine
personal
banking
activities;
YL  The location where the
individual conducts business
activities (other than those that
constitute the individual’s tax
home);
YLL  The
location
of
the
jurisdiction
in
which
the
individual holds a driver’s
license;



66a
YLLL  The
location
of
the
jurisdiction
in
which
the
individual votes;
L[  The country of residence
designated by the individual on
forms and documents; and
[
The types of official forms
and documents filed by the
individual, such as Form 1078
(Certificate of Alien Claiming
Residence in the United States),
Form W-8 (Certificate of Foreign
Status) or Form W-9 (Payer’s
Request
for
Taxpayer
Identification Number).
26 C.F.R. § 301.7701(b)-2(d)(1).
31 C.F.R. § 1010.820 provides:
(a)
For
any
willful
violation,
committed on or before October 12,
1984, of any reporting requirement for
financial institutions under this chapter
or of any recordkeeping requirements of
§§ 1010.311, 1010.313, 1020.315,
1021.311 or 1021.313, the Secretary
may assess upon any domestic financial
institution, and upon any partner,
director, officer, or employee thereof
who willfully participates in the
violation, a civil penalty not to exceed
$1,000.



67a
(b)
For
any
willful
violation
committed after October 12, 1984 and
before October 28, 1986, of any
reporting requirement for financial
institutions under this chapter or of the
recordkeeping
requirements
of
§ 1010.420, the Secretary may assess
upon any domestic financial institution,
and upon any partner, director, officer,
or employee thereof who willfully
participates in the violation, a civil
penalty not to exceed $10,000.
(c)
For any willful violation of any
recordkeeping requirement for financial
institutions,
except
violations
of
§ 1010.420, under this chapter, the
Secretary may assess upon any
domestic financial institution, and upon
any partner, director, officer, or
employee
thereof
who
willfully
participates in the violation, a civil
penalty not to exceed $1,000.
(d)
For any failure to file a report
required under § 1010.340 or for filing
such a report containing any material
omission
or
misstatement,
the
Secretary may assess a civil penalty up
to the amount of the currency or
monetary instruments transported,
mailed or shipped, less any amount
forfeited under § 1010.830.



68a
(e)
For any willful violation of §
1010.314 committed after January 26,
1987, the Secretary may assess upon
any person a civil penalty not to exceed
the amount of coins and currency
involved in the transaction with respect
to which such penalty is imposed. The
amount of any civil penalty assessed
under this paragraph shall be reduced
by the amount of any forfeiture to the
United States in connection with the
transaction for which the penalty was
imposed.
(f)
For
any
willful
violation
committed after October 27, 1986, of
any reporting requirement for financial
institutions under this chapter (except
§ 1010.350, § 1010.360 or § 1010.420),
the Secretary may assess upon any
domestic financial institution, and upon
any partner, director, officer, or
employee
thereof
who
willfully
participates in the violation, a civil
penalty not to exceed the greater of the
amount (not to exceed $100,000)
involved in the transaction or $25,000.
(g)
For
any
willful
violation
committed after October 27, 1986, of
any requirement of § 1010.350,
§ 1010.360 or § 1010.420, the Secretary
may assess upon any person, a civil
penalty:



69a
(1)
In the case of a violation of
§
1010.360
involving
a
transaction, a civil penalty not to
exceed the greater of the amount
(not to exceed $100,000) of the
transaction, or $25,000; and
(2)
In the case of a violation of
§ 1010.350 or § 1010.420
involving a failure to report the
existence of an account or any
identifying information required
to be provided with respect to
such account, a civil penalty not
to exceed the greater of the
amount (not to exceed $100,000)
equal to the balance in the
account at the time of the
violation, or $25,000.
(h) For each negligent violation of
any requirement of this chapter,
committed after October 27, 1986, the
Secretary may assess upon any
financial institution a civil penalty not
to exceed $500.
(i)
For penalties that are assessed
after August 1, 2016, see § 1010.821 for
rules relating to the maximum amount
of the penalty.
31 C.F.R. § 1010.820.



70a
&

Internal Revenue Service Manual.
I.R.M. § 4.26.16.3.6 provided:
(1)
The FBAR is required for each
calendar year during which the
aggregate amount(s) in the account(s)
exceeded $10,000 valued in U.S. dollars
at any time during the calendar year.
The maximum value of an account is
the largest amount of currency and nonmonetary assets that appear on any
quarterly or more frequent account
statement issued for the applicable
year. For example, if the statement
closing balance is $9,000 but at any
time during the year a balance of
$15,000 appears on a statement, the
maximum value is $15,000.
(2)
If periodic account statements
are not issued, the maximum account
asset value is the largest amount of
currency and non- monetary assets in
the account at any time during the
year.
(3)
Convert foreign currency by
using the official exchange rate in effect
at the end of the year in question for
converting the foreign currency into
U.S. dollars. In valuing currency of a
country that uses multiple exchange
rates, use the rate that would apply if
the currency in the account were



71a
converted into U.S. dollars at the close
of
the
calendar
year.
The
official Treasury Reporting Rates
of Exchange for the previous quarter
year
can
be
obtained
at
http://fms.treas.gov/intn.html#rates or
by calling the Department of the
Treasury,
Financial
Management
Service [(“FMS”)] International Funds
Team at (202) 874-7994. As these rates
are published quarterly, the rates
should be accessed during the first
quarter of the following year to obtain
the previous December 31 valuation.
The rates posted on the FMS website
are the current exchange rates.
Historical exchange rates will be
needed to determine the value in a
foreign account in prior years. For
historical exchange rates, call FMS at
(202) 874-8001 or (202) 874- 8004.
These phone numbers may be subject to
change. Check the FMS website
(http://www.fms.treas.gov) for the most
current information.
(4)
The value of stock, other
securities, or other non-monetary assets
in an account reported on the FBAR is
the fair market value at the end of the
calendar year, or if withdrawn from the
account earlier in the year, at the time
of the withdrawal.



72a
(5)
If the filer had a financial
interest in more than one account, each
account is valued separately in
accordance
with
the
previous
paragraphs.
(6)
If a person had a financial
interest in one or more but fewer than
25 accounts and is unable to determine
whether the maximum value of these
accounts exceeded $10,000 at any time
during the year, the FBAR instructions
state that the person is to complete
Part II of the FBAR and if needed, the
continuation page(s) for each of these
accounts. If the maximum aggregate
value of the accounts was not in excess
of $10,000, then there would be no
FBAR violation if the person did not file
the FBAR, whether or not the person
knew the value of the accounts at the
time the FBAR was due. This is because
section 103.27(c) of the Title 31
regulations only requires FBARs to be
filed when the value of the accounts
exceeds $10,000 during a calendar year.
For rules regarding a person with a
financial interest in 25 or more
accounts, see I.R.M. § 4.26.16.3.9.
I.R.M. § 4.26.16.3.6 (July 1, 2008).



73a
I.R.M. § 4.26.16.6.5.1 provides:
(1)
The test for willfulness is
whether there was a voluntary,
intentional violation of a known legal
duty.
(2)
A finding of willfulness under the
BSA must be supported by evidence of
willfulness.
(3)
The burden of establishing
willfulness is on the Service.
(4)
Willfulness is shown by the
person's knowledge of the reporting
requirements
and
the
person's
conscious choice not to comply with the
requirements. In the FBAR situation,
the person only need know that a
reporting requirement exists. If a
person has that knowledge, the only
intent needed to constitute a willful
violation of the requirement is a
conscious choice not to file the FBAR.
(5)
Under the concept of “willful
blindness,” willfulness is attributed to a
person who made a conscious effort to
avoid learning about the FBAR
reporting
and
recordkeeping
requirements.
EXAMPLE:



74a
Willful blindness may be present when
a person admits knowledge of, and fails
to answer questions concerning, his
interest in or signature or other
authority over financial accounts at
foreign banks on Schedule B of his
Federal income tax return. This section
of the income tax return refers
taxpayers to the instructions for
Schedule B, which provides guidance on
their responsibilities for reporting
foreign bank accounts and discusses the
duty to file the FBAR. These resources
indicate that the person could have
learned of the filing and recordkeeping
requirements quite easily. It is
reasonable to assume that a person who
has foreign bank accounts should read
the information specified by the
government in tax forms. The failure to
act on this information and learn of the
further reporting requirement, as
suggested on Schedule B, may provide
evidence of willful blindness on the part
of the person.
Note: The failure to learn of the filing
requirements coupled with other
factors, such as the efforts taken to
conceal the existence of the accounts
and the amounts involved, may lead to
a conclusion that the violation was due
to willful blindness. The mere fact that
a person checked the wrong box, or no
box, on a Schedule B is not sufficient, in



75a
itself, to establish that the FBAR
violation was attributable to willful
blindness.
(6)
The following examples illustrate
situations in which willfulness may be
present:
(a.) A person files the FBAR, but
omits one of three foreign bank
accounts.
The
person
had
previously closed the omitted
account at the time of filing the
FBAR. The person explains that
the omission was due to
unintentional oversight. During
the examination, the person
provides
all
information
requested with respect to the
omitted account. The information
provided does not disclose
anything suspicious about the
account, and the person reported
all income associated with the
account on his tax return. The
penalty for a willful violation
should not apply absent other
evidence that may indicate
willfulness.
(b.) A person filed the FBAR in
earlier years but failed to file the
FBAR in subsequent years when
required to do so. When asked,
the person does not provide a



76a
reasonable explanation for failing
to file the FBAR. In addition, the
person may have failed to report
income associated with foreign
bank accounts for the years that
FBARs were not filed. A
determination that the violation
was willful would likely be
appropriate in this case.
(c.) A person received a warning
letter informing him of the FBAR
filing requirement, but the
person continues to fail to file the
FBAR in subsequent years.
When asked, the person does not
provide a reasonable explanation
for failing to file the FBAR. In
addition, the person may have
failed to report income associated
with the foreign bank accounts. A
determination that the violation
was willful would likely be
appropriate in this case.
I.R.M. § 4.26.16.6.5.1 (Nov. 6, 2015).



77a
I.R.M. § 4.26.16.6.5.2 provides:
(1)
Willfulness can rarely be proven
by direct evidence, since it is a state of
mind. It is usually established by
drawing a reasonable inference from
the available facts. The government
may base a determination of willfulness
on inference from conduct meant to
conceal sources of income or other
financial information. For FBAR
purposes, this could include concealing
signature authority, interests in various
transactions, and interests in entities
transferring cash to foreign banks.
(2)
Documents that may be helpful
in establishing willfulness include:
(a.) Copies of statements for the
foreign bank account.
(b.) Notes of the examiner's
interview with the foreign
account holder/taxpayer about
the foreign account.
(c.) Correspondence with the
account holder's tax return
preparer that may address the
FBAR filing requirement.
(d.) Documents showing criminal
activity related to the non- filing



78a
of the FBAR (or non-compliance
with other BSA provisions).
(e.) Promotional material (from a
promoter or offshore bank).
(f.) Statements for debit or credit
cards from the offshore bank
that, for example, reveal the
account holder used funds from
the offshore account to cover
everyday living expenses in a
manner that conceals the source
of the funds.
(g.) Copies of any FBARs filed
previously by the account holder
(or FinCEN Query printouts of
FBARs).
(h.)
Copies
of
Information
Document
Requests
with
requested items that were not
provided highlighted along with
explanations as to why the
requested information was not
provided.
(i.) Copies of debit or credit card
agreements and fee schedules
with the foreign bank, which may
show a significantly higher cost
than typically associated with
cards from domestic banks.



79a
(j.) Copies of any investment
management
or
broker's
agreement and fee schedules
with the foreign bank, which may
show significantly higher costs
than costs associated with
domestic
investment
management firms or brokers.
(k.) The written explanation of
why the FBAR was not filed, if
such a statement is provided.
Otherwise,
note
in
the
workpapers whether there was
an opportunity to provide such a
statement.
(l.) Copies of any previous
warning
letters
issued
or
certifications of prior FBAR
penalty assessments.
(m.) An explanation, in the
workpapers, as to why the
examiner believes the failure to
file the FBAR was willful.
(3)
Documents available in an FBAR
case worked under a Related Statute
Determination under Title 26 that may
be helpful in establishing willfulness
include:



80a
(a.) Copies of documents from the
administrative
case
file
(including the Revenue Agent
Report) for the income tax
examination that show income
related to funds in a foreign bank
account was not reported.
(b.) A copy of the signed income
tax return with Schedule B
attached, showing whether or not
the box pertaining to foreign
accounts
is
checked
or
unchecked.
(c.) Copies of tax returns (or
RTVUEs or BRTVUs) for at least
three years prior to the opening
of the offshore account and for all
years after the account was
opened, to show if a significant
drop
in
reportable
income
occurred after the account was
opened. (Review of the three
years' returns prior to the
opening of the account would give
the examiner a better idea of
what the taxpayer might have
typically reported as income prior
to opening the foreign account).
(d.) Copies of any prior Revenue
Agent Reports that may show a
history of noncompliance.



81a
(e.) Two sets of cash T accounts
(a reconciliation of the taxpayer's
sources and uses of funds) with
one set showing any unreported
income in foreign accounts that
was
identified
during
the
examination and the second set
excluding the unreported income
in foreign accounts.
(f.) Any documents that would
support fraud (see IRM 4.10.6.2.2
for a list of items to consider in
asserting the fraud penalty).
I.R.M. § 4.26.16.6.5.2 (Nov. 6, 2015).



82a
I.R.M. Exhibit 4.26.16-2, Normal FBAR
Penalty Mitigation Guidelines For Violations
Occurring After October 22, 2004, in part:
Willfulness Penalties
To Qualify
for Level I
–
Determine
Aggregate
Balances

If the maximum aggregate balance
for all accounts to which the
violations relate did not exceed
$50,000, Level I applies to all
accounts. Determine the maximum
balance at any time during the
calendar year for each account.
Add the individual maximum
balances to find the maximum
aggregate balance.

Level I Penalty The greater of $1,000 per violation
is
or 5% of the maximum balance
during the year of the account to
which the violations relate for each
violation.



To Qualify for
Level II –
Determine
Account
Balance

If Level I does not apply and if the
maximum balance of the account
to which the violations relate at
any time during the calendar year
did not exceed $250,000, Level II
applies to that account.

Level II
Penalty
is per
account

The greater of $5,000 per violation
or 10% of the maximum balance
during the calendar year for each
Level II account.

83a
To Qualify for
Level III

If the maximum balance of the
account to which the Level III
violations relate at any time
during the calendar year exceeded
$250,000 but did not exceed
$1,000,000, Level III applies to
that account.

Level III
Penalty is
per
account

The greater of (a) or (b): (a) 10% of
the maximum balance during the
calendar year for each Level III
account, or (b) 50% of the closing
balance in the account as of the
last day for filing the FBAR.

To Qualify for
Level IV

If the maximum balance of the
account to which the violations
relate at any time during the
calendar year exceeded $1 million,
Level IV, the statutory maximum,
applies to that account.

Level IV
Penalty is
per
account
the
statutory
maximum

The greater of (a) or (b): (a)
$100,000, or (b) 50% of the closing
balance in the account as of the
last day for filing the FBAR.

I.R.M. Exhibit 4.26.16-2 (July 1, 2008).



84a
31 U.S.C.A. § 5321
§ 5321. Civil penalties
Currentness
(a)(1) A domestic financial institution or nonfinancial
trade or business, and a partner, director, officer, or
employee of a domestic financial institution or
nonfinancial trade or business, willfully violating this
subchapter or a regulation prescribed or order issued
under this subchapter (except sections 5314, 5315,
and 5336 of this title or a regulation prescribed under
sections 5314, 5315, and 5336), or willfully violating a
regulation prescribed under section 21 of the Federal
Deposit Insurance Act or section 123 of Public Law
91-508, is liable to the United States Government for
a civil penalty of not more than the greater of the
amount (not to exceed $100,000) involved in the
transaction (if any) or $25,000. For a violation of
section 5318(a)(2) of this title or a regulation
prescribed under section 5318(a)(2), a separate
violation occurs for each day the violation continues
and at each office, branch, or place of business at
which a violation occurs or continues.
(2) The Secretary of the Treasury may impose an
additional civil penalty on a person not filing a report,
or filing a report containing a material omission or
misstatement, under section 5316 of this title or a
regulation prescribed under section 5316. A civil
penalty under this paragraph may not be more than
the amount of the monetary instrument for which the
report was required. A civil penalty under this

85a
paragraph is reduced by an amount forfeited under
section 5317(b) of this title.
(3) A person not filing a report under a regulation
prescribed under section 5315 of this title or not
complying with an injunction under section 5320 of
this title enjoining a violation of, or enforcing
compliance with, section 5315 or a regulation
prescribed under section 5315, is liable to the
Government for a civil penalty of not more than
$10,000.
(4) Structured transaction violation.—
(A) Penalty authorized.--The Secretary of the
Treasury may impose a civil money penalty on any
person who violates any provision of section 5324.
(B) Maximum amount limitation.--The amount of
any civil money penalty imposed under subparagraph
(A) shall not exceed the amount of the coins and
currency (or such other monetary instruments as the
Secretary may prescribe) involved in the transaction
with respect to which such penalty is imposed.
(C) Coordination with forfeiture provision.--The
amount of any civil money penalty imposed by the
Secretary under subparagraph (A) shall be reduced by
the amount of any forfeiture to the United States in
connection with the transaction with respect to which
such penalty is imposed.

86a
(5) Foreign
violation.—

financial

agency

transaction

(A) Penalty authorized.--The Secretary of the
Treasury may impose a civil money penalty on any
person who violates, or causes any violation of, any
provision of section 5314.
(B) Amount of penalty.—
(i) In general.--Except as provided in subparagraph
(C), the amount of any civil penalty imposed under
subparagraph (A) shall not exceed $10,000.
(ii) Reasonable cause exception.--No penalty
shall be imposed under subparagraph (A) with
respect to any violation if—
(I) such violation was due to reasonable cause, and
(II) the amount of the transaction or the balance in
the account at the time of the transaction was
properly reported.
(C) Willful violations.--In the case of any person
willfully violating, or willfully causing any violation
of, any provision of section 5314—
(i) the maximum penalty under subparagraph (B)(i)
shall be increased to the greater of—
(I) $100,000, or
(II) 50 percent of the amount determined under
subparagraph (D), and

87a
(ii) subparagraph (B)(ii) shall not apply.
(D) Amount.--The amount determined under this
subparagraph is—
(i) in the case of a violation involving a transaction,
the amount of the transaction, or
(ii) in the case of a violation involving a failure to
report the existence of an account or any identifying
information required to be provided with respect to an
account, the balance in the account at the time of the
violation.
(6) Negligence.—
(A) In general.--The Secretary of the Treasury may
impose a civil money penalty of not more than $500
on any financial institution or nonfinancial trade or
business which negligently violates any provision of
this subchapter (except section 5336) or any
regulation prescribed under this subchapter (except
section 5336).
(B) Pattern of negligent activity.--If any financial
institution or nonfinancial trade or business engages
in a pattern of negligent violations of any provision of
this subchapter (except section 5336) or any
regulation prescribed under this subchapter (except
section 5336), the Secretary of the Treasury may, in
addition to any penalty imposed under subparagraph
(A) with respect to any such violation, impose a civil
money penalty of not more than $50,000 on the
financial institution or nonfinancial trade or
business.

88a
(7) Penalties for international counter money
laundering violations.--The Secretary may impose
a civil money penalty in an amount equal to not less
than 2 times the amount of the transaction, but not
more than $1,000,000, on any financial institution or
agency that violates any provision of subsection (i) or
(j) of section 5318 or any special measures imposed
under section 5318A.
(b) Time limitations for assessments
commencement of civil actions.—

and

(1) Assessments.--The Secretary of the Treasury
may assess a civil penalty under subsection (a) at any
time before the end of the 6-year period beginning on
the date of the transaction with respect to which the
penalty is assessed.
(2) Civil actions.--The Secretary may commence a
civil action to recover a civil penalty assessed under
subsection (a) at any time before the end of the 2-year
period beginning on the later of—
(A) the date the penalty was assessed; or
(B) the date any judgment becomes final in any
criminal action under section 5322 in connection with
the same transaction with respect to which the
penalty is assessed.
(c) The Secretary may remit any part of a forfeiture
under subsection (c) or (d)1 of section 5317 of this title
or civil penalty under subsection (a)(2) of this section.

89a
(d) Criminal penalty not exclusive of civil
penalty.--A civil money penalty may be imposed
under subsection (a) with respect to any violation of
this subchapter notwithstanding the fact that a
criminal penalty is imposed with respect to the same
violation.
(e) Delegation of assessment
banking agencies.—

authority

to

(1) In general.--The Secretary of the Treasury shall
delegate, in accordance with section 5318(a)(1) and
subject to such terms and conditions as the Secretary
may impose in accordance with paragraph (3), any
authority of the Secretary to assess a civil money
penalty under this section on depository institutions
(as defined in section 3 of the Federal Deposit
Insurance Act) to the appropriate Federal banking
agencies (as defined in such section 3).
(2) Authority of agencies.--Subject to any term or
condition imposed by the Secretary of the Treasury
under paragraph (3), the provisions of this section
shall apply to an appropriate Federal banking agency
to which is delegated any authority of the Secretary
under this section in the same manner such
provisions apply to the Secretary.
(3) Terms and conditions.—
(A) In general.--The Secretary of the Treasury shall
prescribe by regulation the terms and conditions
which shall apply to any delegation under paragraph
(1).

90a
(B) Maximum dollar amount.--The terms and
conditions authorized under subparagraph (A) may
include, in the Secretary's sole discretion, a limitation
on the amount of any civil penalty which may be
assessed by an appropriate Federal banking agency
pursuant to a delegation under paragraph (1).
(f) Additional damages for repeat violators.—
(1) In general.--In addition to any other fines
permitted under this section and section 5322, with
respect to a person who has previously violated a
provision of (or rule issued under) this subchapter,
section 21 of the Federal Deposit Insurance Act (12
U.S.C. 1829b), or section 123 of Public Law 91-508 (12
U.S.C. 1953), the Secretary of the Treasury, if
practicable, may impose an additional civil penalty
against such person for each additional such violation
in an amount that is not more than the greater of—
(A) if practicable to calculate, 3 times the profit
gained or loss avoided by such person as a result of
the violation; or
(B) 2 times the maximum penalty with respect to the
violation.
(2) Application.--For purposes of determining
whether a person has committed a previous violation
under paragraph (1), the determination shall only
include violations occurring after the date of
enactment of the Anti-Money Laundering Act of 2020.
(g) Certain violators barred from serving on
boards of United States financial institutions.--

91a
(1) Definition.--In this subsection, the term
“egregious violation” means, with respect to an
individual—
(A) a criminal violation—
(i) for which the individual is convicted; and
(ii) for which the maximum term of imprisonment is
more than 1 year; and
(B) a civil violation in which—
(i) the individual willfully committed the violation;
and
(ii) the violation facilitated money laundering or the
financing of terrorism.
(2) Bar.--An individual found to have committed an
egregious violation of the Bank Secrecy Act, as
defined in section 6003 of the Anti-Money Laundering
Act of 2020, or any rules issued under the Bank
Secrecy Act, shall be barred from serving on the board
of directors of a United States financial institution
during the 10-year period that begins on the date on
which the conviction or judgment, as applicable, with
respect to the egregious violation is entered.
CREDIT(S)
31 U.S.C.A. § 5321 (West)

92a
§ 1010.820 Civil penalty.
(a) For any willful violation, committed on or before
October 12, 1984, of any reporting requirement for
financial institutions under this chapter or of any
recordkeeping requirements of §§ 1010.311, 1010.313,
1020.315, 1021.311 or 1021.313, the Secretary may
assess upon any domestic financial institution, and
upon any partner, director, officer, or employee
thereof who willfully participates in the violation, a
civil penalty not to exceed $1,000.
(b) For any willful violation committed after October
12, 1984 and before October 28, 1986, of any reporting
requirement for financial institutions under this
chapter or of the recordkeeping requirements of
§ 1010.420, the Secretary may assess upon any
domestic financial institution, and upon any partner,
director, officer, or employee thereof who willfully
participates in the violation, a civil penalty not to
exceed $10,000.
(c) For any willful violation of any recordkeeping
requirement for financial institutions, except
violations of § 1010.420, under this chapter,
the Secretary may assess upon any domestic financial
institution, and upon any partner, director, officer, or
employee thereof who willfully participates in the
violation, a civil penalty not to exceed $1,000.
(d) For any failure to file a report required under
§ 1010.340 or for filing such a report containing any
material
omission
or
misstatement,
the Secretary may assess a civil penalty up to the
amount of the currency or monetary instruments

93a
transported, mailed or shipped, less any amount
forfeited under § 1010.830.
(e) For any willful violation of § 1010.314 committed
after January 26, 1987, the Secretary may assess
upon any person a civil penalty not to exceed the
amount of coins and currency involved in the
transaction with respect to which such penalty is
imposed. The amount of any civil penalty assessed
under this paragraph shall be reduced by the amount
of any forfeiture to the United States in connection
with the transaction for which the penalty was
imposed.
(f) For any willful violation committed after October
27, 1986, of any reporting requirement for financial
institutions under this chapter (except § 1010.350,
§ 1010.360 or § 1010.420), the Secretary may assess
upon any domestic financial institution, and upon any
partner, director, officer, or employee thereof who
willfully participates in the violation, a civil penalty
not to exceed the greater of the amount (not to exceed
$100,000) involved in the transaction or $25,000.
(g) For any willful violation committed after October
27, 1986, of any requirement of § 1010.350,
§ 1010.360 or § 1010.420, the Secretary may assess
upon any person, a civil penalty:
(1) In the case of a violation of
§ 1010.360 involving a transaction, a
civil penalty not to exceed the greater of
the amount (not to exceed $100,000) of
the transaction, or $25,000; and

94a
(2) In the case of a violation of
§ 1010.350 or § 1010.420 involving a
failure to report the existence of an
account or any identifying information
required to be provided with respect to
such account, a civil penalty not to
exceed the greater of the amount (not to
exceed $100,000) equal to the balance in
the account at the time of the violation,
or $25,000.
(h) For each negligent violation of any requirement of
this chapter, committed after October 27, 1986,
the Secretary may assess upon any financial
institution a civil penalty not to exceed $500.
(i) For penalties that are assessed after August 1,
2016, see § 1010.821 for rules relating to the
maximum amount of the penalty.
[75 FR 65812, Oct. 26, 2010, as amended at 81 FR
42505, June 30, 2016]

